<html>
<title> - ECONOMIC AND SOCIAL ISSUES AFFECTING THE NORTHWEST TRIBES</title>
<body><pre>[Senate Hearing 111-790]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-790
 
       ECONOMIC AND SOCIAL ISSUES AFFECTING THE NORTHWEST TRIBES
=======================================================================



                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 12, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
63-343                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 12, 2010..................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Dorgan......................................     1

                               Witnesses

Allan, Hon. James, Tribal Chairman, Coeur d'Alene Tribe..........    16
    Prepared statement...........................................    18
Abrahamson, Hon. Greg, Chairman, Spokane Tribe...................    44
Cagey, Hon. Henry, Chairman, Lummi Tribe.........................    46
Cladoosby, Hon. Brian, President, Affiliated Tribes of Northwest 
  Indians........................................................    10
    Prepared statement...........................................    13
Dillon, Sr., Hon. Herman, Chairman, Puyallup Tribe; accompanied 
  by Chad Wright, Director of Marine View Ventures...............     6
    Prepared statement...........................................     6
Finley, Hon. Michael, Chairman, Confederated Tribes of the 
  Colville Reservation...........................................    21
    Prepared statement...........................................    22
Forseman, Hon. Leonard Chairman, Suquamish Tribe.................    45
McCarty, Hon. Mikah, Councilman, Makah Tribe.....................    48
McCoy, Hon. John, U.S. Representative from Washington............    48
Sheldon, Hon. Mel, Chairman, Tulalip Tribe; accompanied by Glen 
  Gobin, Board Member............................................    39
    Prepared statement...........................................    41
Stewart, Hon. Leo, Vice Chairman, Board of Trustees, Confederated 
  Tribes of the Umatilla Indian Reservation......................    25
    Prepared statement...........................................    26
Tom, Hon. Kathleen, Tribal Council Secretary, Confederated Tribes 
  of the Grand Ronde Community of Oregon.........................    28
    Prepared statement...........................................    30

                                Appendix

Confederated Tribes of the Warm Springs Reservation of Oregon, 
  prepared statement.............................................    79
Iyall, Hon. William, Chairman, Cowlitz Indian Tribe, prepared 
  statement......................................................    53
James, Jewell, Master Carver, House of Tears Carvers, Lummi 
  Nation, prepared statement.....................................    55
Metcalf, Hon. Edward L., Chairman, Coquille Indian Tribe, 
  prepared statement.............................................    75
Pigsley, Hon. Delores, Chairman, Confederated Tribes of Siletz 
  Indians, prepared statement....................................    77


       ECONOMIC AND SOCIAL ISSUES AFFECTING THE NORTHWEST TRIBES

                              ----------                              


                       THURSDAY, AUGUST 12, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                          Fife, WA.
    The Committee met, pursuant to notice, at 10:30 a.m. in the 
Emerald Queen Hotel Building, Hon. Byron L. Dorgan, Chairman of 
the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Ladies and gentlemen, we are going to call 
the hearing to order. This is the hearing of the Indian Affairs 
Committee of the United States Senate. I'm Senator Byron 
Dorgan, Chairman of the Committee, and I'm accompanied by 
Senator Maria Cantwell, the Senator from the State of 
Washington and a very active member of the Indian Affairs 
Committee.
    I'm really pleased to be here today in the State of 
Washington and here at this facility. I'd like to begin today 
by calling on the President of the Affiliated Tribes of the 
Northwest Indians from Portland, Oregon, Brian Cladoosby to 
offer an opening prayer.
    [Opening prayer was given.]
    The Chairman. President Cladoosby, thank you very much. Let 
me thank the Honorable Herman Dillon, the Chairman of the 
Puyallup Tribe. The Puyallup Tribe is our host today, and thank 
you so much for allowing us to be here with you at your 
wonderful facility.
    Let me also start by saying how pleased I am to be able to 
work with Senator Maria Cantwell and also Senator Patty Murray 
from the State of Washington. And I know we have some folks 
from Oregon here, and the Senators from Oregon, Ron Wyden and 
Jeff Merkley, work very closely with us as well. In fact, I 
think we have some legislation pending right now in the Senate 
for a unanimous consent request dealing with leasing 
opportunities for Indian tribes in both states, the States of 
Washington and Oregon.
    This hearing was originally scheduled to be held at the 
Chief Leschi School, the Puyallup tribe's Chief Leschi School 
which is one of the largest and most diverse Bureau of Indian 
Affairs schools in America. Unfortunately and tragically, a 
young tribal member, Canaan Pluff was killed in a motorcycle 
accident at 21 years of age, and I know this is a very 
difficult time for the tribe and for this young man's family, 
and I know that there's a funeral in that facility and so our 
hearts and our prayers go out to them as well, and Mr. 
Chairman, I hope you'll pass that along to them. And I thank 
you for allowing us to use these facilities in these difficult 
circumstances for the Tribe.
    I thank very much Senator Cantwell for finding time in her 
day to come here and participate. She participates very 
actively on this Committee, and I want to say that she and I 
and other members of the Committee, including Senator Murray of 
the State of Washington, I think it is the case to say that we 
have perhaps accomplished more legislative success for American 
Indians in the last 12 months than existed in the past three 
decades, and let me explain that.
    We finally at last, at long, long last have passed the 
Indian Health Care Improvement Act. And we not only passed it, 
we made it permanent.
    [Applause.]
    The Chairman. So it was not only reauthorized, but it is 
made permanent which is a big, big deal. You know, it's the 
first time in 18 years that the Congress has successfully dealt 
with this subject, and in no small measure due to the work of 
Senator Cantwell and Senator Murray. I'm really pleased. We 
said look, we are going to focus like a laser to get this done. 
We did.
    Now, just weeks ago we also passed the Tribal Law and Order 
Act. That is a big, big deal.
    [Applause.]
    The Chairman. And I want to tell you what we did. Senator 
Barrasso, the Vice Chair of the Committee, myself, Senator 
Cantwell and others, we sent staff around the country to 
consult with tribes. First and foremost we have always believed 
consultation is critical in order to understand how we need to 
legislate. We consulted for a couple of years all around the 
country: What are the needs, what should we do, how do we 
address this. And then we put together the Tribal Law and Order 
Act, and finally at long last, just weeks ago, Senator Barrasso 
and I and others were at the White House and the President 
signed the Tribal Law and Order Act, and it's going to make a 
big difference.
    It allows for so many new approaches, including cross-
deputization with law enforcement authorities on and off the 
reservation, access to the National Criminal Database for--I 
won't go into the details, but let me just say that we have 
made major progress, and again, in no small part to the work of 
the Indian Affairs Committee, and I'm just really pleased to be 
here to describe that.
    Let me make one other point to you: When the President 
proposed an Economic Recovery Act, we supported that Act, 
Senator Cantwell and I supported the Economic Recovery Act, but 
we insisted that there be some investment for American Indians. 
There was not in the original proposal by the President a body 
of money that would go to create jobs and invest money on 
Indian reservations across the country.
    We got them to include $2.5 billion, $2.5 billion dedicated 
to Indian reservations to build and construct and create jobs, 
and it's making a big difference with respect to the building 
and rehabilitation of health care facilities, detention 
centers, roads, school construction, housing, and much more. 
And all that is going on now across the country on Indian 
reservations. It is the single biggest investment that has ever 
been made at one time on Indian reservations in America. I 
think we've made so much progress and I'm so proud of the work, 
as I've said, that particularly the two Senators from the State 
of Washington have made with Senator Cantwell being a member of 
this Committee.
    I don't know much about fishing and, you know, all the 
things that you do up here, but I know a lot about the Plains 
Indians and those needs, but now I know a lot about everything 
because Maria Cantwell has described to me all of the 
challenges that come with your tribes and your needs, so what 
we wanted to do today in the shadow of having passed this 
legislation, we wanted to hold a hearing in this region to talk 
about the economic and social challenges and needs going 
forward now that we've passed a health care bill, now that 
we've passed the Tribal Law and Order Act.
    We are working on a number of other issues such as housing 
and education, and so we want to find out what's on your minds, 
what do you see as the priorities that we ought to take a look 
at moving forward, and especially the priorities with respect 
to the implementation now of this new legislation.
    We have six witnesses, and we very much appreciate their 
willingness to be here. We will also at the conclusion of the 
witness statements ask some questions, and I will also have a 
brief open mic so that if there are those that come and wish to 
say a few words and add their voice, we'll be happy to hear 
that. We don't have unlimited time, but we will be happy to 
hear that and we will also extend for two weeks the opportunity 
for anybody to submit formal written testimony to be included 
in the hearing record for today.
    Let me call on my colleague, Senator Cantwell from the 
State of Washington who just does such a great job on these 
issues. Senator Cantwell?
    [Applause.]

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you. And thank you Senator Dorgan 
for bringing the Indian Affairs Committee to a field hearing in 
the Pacific Northwest. We thank you for continuing to pay 
attention to these important issues, and we certainly believe 
in the Northwest that we have very creative ideas as it relates 
to the economic success of Indian country. So thank you for 
allowing everyone here to be able to share those with you 
today. I want to recognize the Chairman's great efforts at that 
legislative agenda that he just mentioned. I don't think that 
there has been a more effective or efficient chairman in the 
passage of Indian legislation in the last 30 years. So thank 
you for your leadership as Chairman of that Committee.
    [Applause.]
    Senator Cantwell. And while you say you don't know a lot 
about fish, which I'm sure we could tell you a lot, you do know 
that health care is important and that's why you pushed so hard 
to get this legislation passed, so it is truly, truly, truly 
historic. And so for all of those who are going to benefit from 
the increase in the health care delivery system, we thank you. 
We pride ourselves in the Northwest in being leaders in this 
area, and the fact that you're going to hear about some of that 
innovation today, we just thank you for being such an advocate.
    And I want to thank all the tribal leaders who are here 
today, our witnesses, and those who are attending in the 
audience because they are coming to share their concerns about 
Indian Country from all over the state and from the Northwest. 
I think we have people here from both Idaho and Oregon, and 
maybe even people from Alaska, I don't know.
    And I know that our colleague Senator Murray was unable to 
join us today because of a scheduling conflict, but we 
certainly appreciate the work that she has done on many pieces 
of legislation, including helping us with the Indian health 
care issue, housing, and infrastructure projects.
    And Christina Reeves is here from Senator Murray's office, 
if she would just stand or raise your hand there, and Mendy 
Droke is here from Congressman Inslee's office. So thank you 
both for being here today as well.
    [Applause.]
    Senator Cantwell. Senator Murray has been working on 
protecting our natural resources and salmon recovery, and I 
look forward to continuing to work with her and my other 
colleagues on issues of protecting tribal sovereignty and just 
continuing the government-to-government dialogue between our 
governments.
    I know that she really believes that this historic moment 
when 1.9 million Native Americans who have been waiting too 
long to modernize their health care system will actually have 
the first modernization of this policy since 1992, and so it's 
very important that we change the health care system and make 
sure that we continue to increase the advantages.
    For example, the Indian Health Service and tribal health 
care providers needed appropriate tools and programs in place 
to diagnose, treat, and prevent various physical and mental 
illnesses, and the Health Care Act that we passed does just 
that. It gives more flexibility to the administrator of the 
funds, it authorizes new programs at the Indian Health Service, 
including long-term care as we know is so important, and also 
programs for youth suicide prevention, and mental health 
treatment. So we all look forward to hearing what the Tribes 
have to say today about that legislation.
    I also wanted to mention because Chairman Dorgan talked 
about the law that was signed by President Obama on the 29th, 
and many people here--well, Chairman Dillon and Chairman Finley 
of Colville are here today and I think they came to testify 
before our Committee in Washington, D.C. on this legislation, 
so we thank them for that.
    And I know that we had several members, including Chairman 
Allan from the Jamestown S'Kallam who were actually there when 
President Obama signed the legislation, so we were there along 
with Brian Cladoosby to make sure that everybody knew how 
important this legislation was to the Pacific Northwest. And 
this critical new law will give us the ability to address 
violence on Indian reservations. And tribal law enforcement 
officials in the Northwest report a total of 89 different 
documented gang activities on reservations. So gang activities 
which we're seeing all over the State of Washington know no 
boundaries, and so we want to make sure that Indian Country has 
effective tools for making sure that we can fight those gang 
activities and other crimes and that we can continue to be 
effective, so another success in the progress for Indian 
Country and working together.
    And I know many people here know that the Committee also 
passed out legislation from our Committee that Senator Murray 
has sponsored dealing with the Hoh Indian Reservation. We hope 
that that legislation will pass as soon as we return in 
September. I think we've worked out the differences between the 
House and Senate version.
    Is anybody from Congressman Dicks' office here today? 
They're probably going to be here a little bit later, but they 
have been working on that legislation, so it has also been 
progress from our Committee.
    So I know that many of you here have so many ideas. One 
thing I love about representing you in our Nation's Capital is 
I just take the good ideas that you have back to Washington, 
and that is on areas of Indian Country energy issues, self-
governance, government-to-government relations and our 
continued focus as we're going to talk today about economic and 
social issues.
    So again, Chairman Dorgan, thank you for being here to hold 
this important hearing and thank you particularly to the 
Puyallups for hosting us and for everybody here in the 
Northwest showing up to give the Chairman a direct viewpoint 
here in the Northwest about these important issues. Thank you.
    [Applause.]
    The Chairman. Senator Cantwell, thank you very much. A 
couple brief introductions, then I'm going to call on the first 
witness. And let me also say, I made it sound like we passed 
the health care bill all by ourselves. That, of course, is not 
the case. Congressman Inslee and Congressman Dicks and so many 
others played a very important role and I want to acknowledge 
that as well.
    We have some folks who are here at the hearing taking a 
look at some of the tribal facilities in this region as well. 
Denise Desiderio with the Indian Affairs Committee, Allison 
Binney is the Staff Director of the Indian Affairs Committee, 
Jim Hall is working for Senator Barrasso on the Indian Affairs 
Committee, Rhonda Harjo with Senator Barrasso is right behind 
me, and Christine Reeves has already been introduced I guess as 
well.
    Chairman Dillon, thank you very much. We will ask that you 
begin today, and if you'll speak directly into the microphone 
so that everyone in the room can hear and participate in your 
conversation, then we'll go on down the line and ask other 
witnesses as well. Your entire statements will be made part of 
the permanent record, so we will ask that you summarize your 
statements. Chairman Dillon, thank you, you may proceed.

        STATEMENT OF HON. HERMAN DILLON, SR., CHAIRMAN, 
          PUYALLUP TRIBE; ACCOMPANIED BY CHAD WRIGHT, 
                DIRECTOR OF MARINE VIEW VENTURES

    Mr. Dillon. Thank you, Mr. Chairman. I'm the Senior 
Chairman of the Puyallup Tribe. I would like to welcome you and 
all your staff and the Committee members, all our tribal 
leaders from different reservations to the Puyallup Tribe 
Reservation.
    I'm just going to make it short and sweet and let you get 
on so that they have more time to do what they need to do. We 
presented our written testimonies, so with that, thank you for 
honoring us by being here.
    The Chairman. Mr. Chairman, thank you very much. That will 
be the shortest testimony of the day.
    Mr. Dillon. I've made shorter ones.
    [The prepared statement of Mr. Dillon follows:]

Prepared Statement of Hon. Herman Dillon, Sr., Chairman, Puyallup Tribe
    My name is Herman Dillon, Sr. I am Chairman of the Puyallup Tribe 
of Washington State and I want to welcome the Senate Committee on 
Indian Affairs once again to the Puyallup Reservation. As is clearly 
apparent, the Puyallup Reservation is located in the urbanized Seattle-
Tacoma area of the State of Washington. Our 18,061-acre reservation 
encompasses most of the City of Tacoma, but the area is a 
``checkerboard'' of Tribal and trust land, Indian-owned fee land, and 
non-Indian owned fee land. Our reservation land includes parts of six 
different municipalities (Tacoma, Fife, Milton, Puyallup, Edgewood and 
Federal Way). The Puyallup Tribe also provides services for 3,680 
tribal members and over 24,000 additional Native Americans from over 
345 Tribes and Alaska Native villages in our service area. \1\
---------------------------------------------------------------------------
    \1\ The City of Tacoma has the sixth highest percentage among U.S. 
cities of American Indians and Alaska Natives, 3.6 percent of the total 
population.
---------------------------------------------------------------------------
    The Puyallup Tribe has enjoyed remarkable success in the more than 
forty years since game wardens arrested many of our members for 
exercising their treaty-protected right to fish on the Puyallup River. 
These arrests resulted in what many herald as the most significant 
legal victory for Tribes in modern times: the Boldt decision and its 
progeny. The Boldt decision held that the Tribal signatories to the 
many Stevens Treaties in the Northwest are entitled to fifty percent of 
the harvestable catch of salmon and shellfish in their usual and 
accustomed areas. This decision resulted in the revitalization of 
Tribal communities throughout the Northwest because once our members 
could earn a living at home fishing and gathering, they came home in 
droves.
    The return of our members required Tribal governments to respond to 
their most basic needs, which included law enforcement, health care, 
schools, road and utility infrastructure, and economic development. In 
these areas, the Puyallup Tribe has also been a national leader. 
Nonetheless, while we have achieved many successes in the last forty 
years, we have a great deal that remains to be done.
A. Education
    I want to begin today by talking about education. We have come a 
long way since the Puyallup Tribe opened its first school in 1976 in 
order to address the high dropout rate experienced by our students in 
public schools. That first school was in a facility that we borrowed 
from the Tacoma School District. It was through the persistence of many 
Tribal leaders, including our former Chair and present councilwoman 
Roleen Hargrove, that Congress provided to us the funding to build this 
facility that we use now. We completed this facility and opened it to 
students in 1996.
    Today, the Chief Leschi School is the largest of the seven tribal 
schools in Washington State, and it remains one of the largest in the 
BIE School System. The School serves approximately 910 students 
attending pre-kindergarten through 12th grade. We also have more than 
60 different Tribes represented in our student body. The current 
enrollment figures represent near capacity with all classrooms being 
utilized on a daily basis.
    While our basic educational facilities are outstanding, there are 
aspects of the school's facilities that remain incomplete. In 
particular, we have an auditorium and athletic fields that still 
require substantial work--today we must rent and bus our students to 
practices on other schools' fields. Completing the auditorium will 
allow us to complement and further our students' academic progress by 
providing them, quite literally, a stage upon which to shine and 
demonstrate their talents. Our athletic fields are similarly crucial 
because at present, our athletes do not have a field of their own and, 
consequently, we have never possessed a home field advantage. It is 
well known that participation in sports and other extra curricular 
activities increases students' investment in their school which often 
translates into personal and academic success. With no home field 
advantage or sense of team ownership, our student athletes are missing 
out on this important component of school life. While our athletes do 
their best and we are proud of them, we need these facilities so that 
they can enjoy success on the playing field and understand true school 
spirit.
    We understand the great need for school facilities in Indian 
Country, including the enormous backlog to ensure that BIA and Tribal 
school facilities meet even basic safety requirements--we were at that 
point once. But Congress must understand that until we provide our 
children with every opportunity to succeed, and demonstrate that we, as 
a Nation, are willing to invest all our resources to ensure that they 
will have a better and brighter future, I can promise you that these 
Indian children will not believe us when we tell them that we want the 
very best for them. We commend Congress for including Tribal and BIA 
schools in the legislation to secure teacher jobs. Specifically, the 
measure provides $50 million for BIA-funded schools. This will be 
important because BIA and Tribal schools have not had any measurable 
increase in school operating funding in several years.
    In the area of reauthorization of the Nation's education law, we 
endorse the priorities of the National Congress of American Indians and 
the National Indian Education Association. In particular, Congress must 
be vigilant to ensure that BIE schools are included in the authorized 
programs.
B. Law Enforcement
    I want to take the opportunity to thank you, Senator Dorgan, for 
your steadfast leadership in obtaining passage of the Tribal Law and 
Order Act. This Act will be vitally important to the Puyallup Tribe as 
we seek to address the public safety needs of our community.
    We share law enforcement authority with State, local and Federal 
governments. Due to the number of governments involved, the 
checkerboard nature of our land, and the fact that our reservation 
touches many local jurisdictions, the question of jurisdiction over a 
specific crime is complicated. The answer depends on who the defendant 
is, whether the land is trust land, and which local jurisdiction the 
land is in. The Tribal Law and Order Act will therefore help rectify 
this complex jurisdictional maze and allow the Tribe to further build 
on existing relationships in order to meet the law enforcement needs of 
our community.
    As we have testified before, we have 28 active gangs on the 
Puyallup Reservation. A few of these gangs are Native gangs, and others 
are national gangs with Native members, while still others are non-
Native gangs that operate on or near the Reservation. Regrettably, many 
of these gang members are teenagers, but we have seen gang members as 
young as eight years old. These gangs are involved in various criminal 
activities, including drug trafficking, weapons sales, and turf wars. 
They are aided by easy access to I-5, which is widely known as a drug 
corridor. The Puyallup Tribe responded to the gang problem, by 
establishing a Gang Task Force comprised of the Tribal Police 
Department, representatives from various Tribal Services Divisions, and 
community members. The Gang Task Force developed a working definition 
of a ``street gang'' and a four-pronged approach to preventing gang 
activities, which includes: (1) enforcement, (2) intelligence, (3) 
education, and (4) physical-mental health. This Task Force is 
celebrated by our many sister law enforcement agencies as being one of 
the most highly-developed gang response strategies of any law 
enforcement agencies in the area.
    Today, we are preeminently concerned with the threat that drug use 
and in particular prescription drug use presents to the future of the 
Puyallup Tribe. Presently, nearly half of Puyallup Tribal members are 
17 years old or younger, and one-third of them are under 10 years old. 
As they grow up, our children face many of the risk factors that lead 
to unhealthy behaviors including drug use and gang activity, such as 
poverty (73 percent of students at our Tribal school qualify for free 
or reduced lunch), lack of education (the dropout rate for Native 
students in Washington state is consistently twice that of all 
students), and family instability (the number of dependency, 
guardianship and family services cases at Puyallup has almost doubled 
last decade).
    This last winter, federal officials made a significant arrest of a 
major drug supplier on the Reservation. When this supplier was put out 
of business, our social service program experienced a major increase in 
the number of clients seeking drug treatment and prevention services. 
This taxed all of our programs, including our police force, who worked 
closely with our family and social services departments to meet the 
needs of not only the people addicted, but also of their families and 
most importantly their children. We continue to work with these people 
as they seek to overcome their addictions and become healthy members 
again. The provisions of the Tribal Law and Order Act intended to 
facilitate better coordination among Federal agencies to better address 
substance abuse with respect to public safety and health will go a long 
way in assisting with these efforts. However, it is critical that 
Congress fully fund these efforts so that these programs do not wither 
on the vine.
    In many respects, the Tribal Law and Order Act codified programs 
and initiatives that the Puyallup Tribe has been implementing for 
nearly a decade in responding to the needs of our members and 
community. Now, the challenge is to ensure that Federal agencies, in 
particular the U.S. Attorneys Office, take seriously the intent of 
Congress and work with Tribes to implement the Act, while achieving the 
positive change in public safety that Indian Country deserves. This 
will require consultation with Tribes, focused dedication by the 
Federal agencies involved, and regular oversight by Congress. It will 
also require funding. In this era of severe budget deficits, we 
understand that this endeavor will be challenging, but the failure to 
fund these programs will cost the Federal government more in the long 
run and, even more critically, it could cost Tribes our very future.
C. Economic Development
    For decades, the Puyallup Tribe focused on improving the economy of 
the Tribe and the Region. The Tribe now operates seven businesses, 
including two casinos, a marina, and four gas stations. The Tribe also 
leases its industrial and commercial lands in and around the Port of 
Tacoma to widely varying businesses, sometimes in unique partnerships, 
which bring additional jobs and economic activity to the region.
    The Tribe is very excited about the opportunity to become part of 
one of the largest shipping terminals on the Pacific coast. Through the 
Puyallup Land Settlement Act of 1987, the Tribe received more than 300 
acres of land located on the Blair and Hylebos Waterways on 
Commencement Bay. The tribal port properties are within or adjacent to 
the Port of Tacoma. In 2008, the Tribe (through its economic 
development arm Marine View Ventures, hereafter ``MVV'') entered into 
an Agreement with SSA Containers, Inc. (``SSA'') for the development of 
a new international container terminal facility that, when fully 
constructed, will be the largest in the Pacific Northwest. Soon after, 
the Tribe, MVV, SSA and the Port of Tacoma separately entered into a 
set of agreements that coordinate the development and operation of 
their facilities, related transportation, and other infrastructure.
    This Agreement has created significant business development 
opportunities for the Tribe and will have tremendous economic benefits 
to the state and region. Specifically, it significantly increases 
container terminal handling capacity and creates living-wage jobs. 
While the economic downturn and overcapacity at all container terminals 
on the West Coast suggest the project may have a longer development 
timeline than originally anticipated, the parties' relationships remain 
strong and there exists a vibrant commitment to cooperation. However, 
it is now also clear that in order to take advantage of these 
opportunities, we need to change the Federal-Tribal leasing law to 
eliminate some of the bureaucracy from the process. This is why our 
Congressional delegation introduced S. 2906, which would eliminate the 
BIA from the process for surface leases for terms of less than 75 
years, so long as such leases are approved pursuant to Tribal leasing 
regulations that have already been approved by the Secretary of the 
Interior. This authority is essentially identical to the authority that 
the Tulalip Tribe to our north has maintained for almost thirty years. 
We thank the Committee for approving this legislation and ask that you 
work with your colleagues to seek final enactment of this small but 
important measure.
D. Transportation.
    Related to economic development is infrastructure development. The 
Puyallup Tribe has a unique interest in the reauthorization of the 
transportation legislation. We must ensure that Congress funds and 
makes available to Tribes all aspects of inter-model transportation, 
including rail, port, trails and roads. We urge Congress to reauthorize 
the Nation's transportation programs because they are an important 
element to securing economic development and security in Indian 
country.
    While we do not own the roads on our reservation as large land 
based Tribes do, we nonetheless have wide and diverse transportation 
needs. As you can see, we are an urban Tribe, and although local 
governments own the roads within our reservation, we still experience 
the same needs as if we did own them. Using the IRR Program, the Tribe 
is currently working on the development of a boat ramp/park facility 
that the Tribe will manage for our fisherman and their families. At the 
same time, we are currently repairing an unpaved City-owned street for 
access to our Grandview Learning Center. We are also currently 
improving a street that is the main access road to Tribal programs and 
services for our members, and we will complete a safety project for the 
administrative offices there.
    In sum, it is vital for Congress to include the kind of changes 
proposed by Chairman Dorgan last year for the next transportation 
reauthorization measure so that we can continue to address our needs. 
As we understand them, the proposed changes would bring significant and 
much-needed funding increases for Tribal transportation programs, 
create new safety programs to address the high rates of traffic 
injuries and deaths experienced in Indian country, and streamline 
existing transportation programs and funding mechanisms. Tribal 
governments, the Bureau of Indian Affairs (BIA) and the Federal Highway 
Administration (FHWA) can then put the maximum amount of program funds 
into improving the transportation infrastructure that is so important 
to tribal governments across the country. However, the Puyallup Tribe 
opposes any changes to the current funding formula. We fear that unless 
there is a provision in the next legislation that protects urban 
reservations like Puyallup's, our Tribe will not be able to adequately 
address our transportation needs.
    One final consideration that we would ask of the Committee in the 
next reauthorization is to allow Tribes greater flexibility in using 
their IRR dollars for roads that provide access to treaty protected 
resources. Specifically, we have about 50 miles of ``private'' roads 
that provide the only viable access to Tribal fisheries facilities on 
the northern portion of the Puyallup River. These facilities require 
daily and weekly access and they include a fish ladder, rearing ponds, 
and acclimation ponds. The roads are severely impacted by weather and 
require regular repair. We have an agreement from the private landowner 
to use the roads, and we have an MOU providing that once the roads are 
repaired, they will maintain them. Still, the BIA will not approve the 
MOU or put the roads on our inventory because they are not considered 
``public'' roads and as a result, we cannot use the IRR funding. We 
even agreed not to use road mileage to generate additional IRR funding, 
for we simply wish to use IRR funds to repair these access roads to our 
fisheries facilities. But the BIA and DOT will not let us to do this, 
and consequently, these important treaty protected resources are in 
danger.
E. Health Care
    The Puyallup Tribe, as a long-time leader in the area of health 
care in Indian Country, again extends our greatest appreciation to the 
Committee for its dedicated efforts in securing passage of the Indian 
Health Care Improvement Act. The Puyallup Tribe was the first Tribe in 
the country to take over operation of an IHS facility on Indian lands. 
This was in 1976. Today, we continue to operate one of the most 
utilized ambulatory health centers in the country.
    While we heralded the success of the passage of the Patient 
Protection and Affordable Care Act, we again caution that Congress must 
ensure that Federal agencies properly implement the Act to address the 
needs and interests of Indian Country. We have already heard that 
Federal agencies narrowly construe key areas of the law. Specifically, 
Congress authorized Tribes to participate in the Federal Employee 
Benefits Program as a mechanism to enable Tribal governments to comply 
with the employer mandate in providing health insurance for their 
employees. We also understand that the Office of Personnel Management, 
without Tribal consultation, has interpreted this provision of the Act 
to apply only to Tribal employees hired pursuant to an Indian Self-
Determination Act contract with the Indian Health Services. This 
interpretation flies in the face of the clear statutory language and, 
we believe, the unambiguous intent of Congress.
    Finally, as with the Tribal Law and Order Act, in order for Tribes 
and Indian people to realize the promise of the Indian Health Care Act 
Reauthorization Act, it is important for Congress to fully fund the 
programs authorized under the Act.
F. Environment
    I will end today talking about something that ties our community 
together economically, socially and culturally, namely our natural 
environment and the need to protect the land and resources that are the 
very heart of our people. The Puyallup Tribe, as a steward of the land 
and marine waters in the usual and accustomed fish and shellfish areas, 
has both treaty and Governmental obligations and responsibilities to 
manage natural resources for uses beneficial to the regional community. 
As I said in the beginning of this testimony, the ability of our people 
to make a living by exercising their treaty protected right to fish and 
gather where our ancestors fished thousands of years revitalized our 
communities. Today, fishing and gathering activities support almost 80 
percent of Indian families living on the Reservations on the Puget 
Sound. Thus, if these resources are not available or if they become 
degraded such that harvesting is unfeasible, 80 percent of the Indian 
families on the Puget Sound must find another way to survive. 
Furthermore, Tribes generate substantial tax dollars from the Tribal 
taxes levied on the harvests, but will not receive this revenue if the 
harvests are no longer available. Consequently, the economic survival 
for Tribes and Indian people on the Puget Sound is very much dependent 
on the health of our natural resources.
    Thus, we urge Congress to undertake initiatives that support the 
health of the Puget Sound and that ensure that Tribes are an equal 
voice at the table, while considering the actions and activities that 
take place on the Puget Sound.
    I thank you for the opportunity to present testimony today.

    The Chairman. All right. Next we will hear from the 
Honorable Brian Cladoosby who is President of the Affiliated 
Tribes of the Northwest Indians, and he reminded me earlier 
this morning that when he testified before our Committee in 
Washington, D.C. I really didn't do well by his name, so I have 
practiced and practiced and practiced and President Cladoosby, 
I've gotten it right today.
    Mr. Dillon. Excuse me a minute. I would like to make one 
comment. You know, Senator Cantwell made the comment about the 
gang warfare that we're working on. My Vice Chairman is leaving 
Sunday for Chicago, and with his participation that's Lawrence 
LaPoint, who him and I testified in front of you back in D.C. a 
couple years ago, he's going back to Chicago to receive an 
award for his participation in this.
    I'm very honored. I wanted to go with him, but he's Vice 
Chair and I'm Chair. Somebody's got to stay home and take care 
of business. But I'd be there with him if I could, but I just 
wanted to make a statement and we honor that he is going to 
receive that award.
    The Chairman. Please congratulate him for us.
    [Applause.]
    The Chairman. Will he stand so we can recognize him? Is he 
in the room? Congratulations.
    [Applause.]
    The Chairman. Mr. Cladoosby, you may proceed.

STATEMENT OF HON. BRIAN CLADOOSBY, PRESIDENT, AFFILIATED TRIBES 
                      OF NORTHWEST INDIANS

    Mr. Cladoosby. Thank you. Maybe Chairman Dillon can yield 
the rest of his time to me.
    Good morning, Chairman Dorgan. Good morning, Senator 
Cantwell. Before I start I just wanted to ask that we have a 
moment of silence for the Stevens family, the late Senator Ted 
Stevens and his family. ATNI and the Swinomish Tribe offer our 
condolences. I know both of you were very good friends. Even 
though you might have been on opposite sides of the aisle, you 
still recognized that you were all part of a family there in 
D.C. as Senators. And even though you guys might not see eye to 
eye, you guys respected each other as colleagues. So I would 
just like to offer a moment of silence for the Stevens family 
at this time.
    [Moment of silence.]
    Mr. Cladoosby. Thank you. Chairman Dorgan, once again my 
name is Brian Cladoosby. For the record I'm the Chairman of the 
Swinomish Indian Tribal Community and also President of the 
Affiliated Tribes of Northwest Indians and it's a real honor to 
be asked to testify here before you on economic and social 
issues affecting Indian tribes in the Northwest.
    ATNI was founded in 1953. It represents 57 tribes in 7 
western states and we have some very, very large land-based 
reservations from the Colville who has millions and millions of 
acres to the Samish Tribe who was newly recognized in 1996 and 
I think have yet to get an acre of land into trust. So we are 
very diverse in the Northwest in the amount of land and natural 
resources that we have to call upon.
    And we, just like many other tribes across the nation, face 
very diverse challenges, and our primary goal is to ensure we 
have communities that are healthy, safe, and sustainable. And 
so first I'd like to share some thoughts.
    We as Northwest tribes are learning more as we progress. As 
you know, we have many casinos here in the Northwest and we 
have learned that distributing income from these casinos is not 
always the answer. Indeed, just as would be imagined for any 
other community, free windfall money is more likely to reduce 
motivation, destroy self-esteem and aggravates long endured and 
reinforced symptoms of poverty than it is to solve them. So we 
have learned that job creation alone is not the solution.
    People accustomed to living outdoors, people accustomed to 
hunting, fishing, remain among the most valued possible human 
endeavors, and they aren't necessarily drawn to windowless, 
smoke-filled rooms lit with flashing lights or corporate-style 
offices.
    Gaming has been a success for many communities but not all. 
People out there think that just because Indians have casinos 
that all Indian tribes are doing well. That could not be 
further from the case. We have many issues that we need to 
address: Health care, education, and housing, and as you said, 
the Indian Health Care Improvement Act finally is permanent and 
we thank you and all those that worked very, very hard on that 
to make that possible for Indian Country.
    We still have many, many social issues that are affected in 
Indian Country. Poverty is a big issue. It's safe to say that 
since the Great Depression, many of the tribes are still in a 
great depression with unemployment rates still as high as 40, 
50, 60, 70 percent. So when the United States is talking about 
10 percent double-digit unemployment rates, some tribes across 
the nation have not even seen unemployment rates under 50 
percent since the Great Depression.
    We thank God that we're able to provide essential 
governmental services for our people, but in many of the remote 
communities, that is not always the case. And we thank God that 
many of us can provide these services and make them available 
to many of our neighbors through economic development and 
providing jobs to other communities.
    It's safe to say that the Northwest tribes have been 
leaders in assuming direct management of our natural resources. 
According to the BIA statistics, Northwest tribes and their 
enterprises support approximately 40,000 jobs and buy over a 
billion dollars a year in supplies and services, much of which 
support our larger local communities outside of our 
reservations.
    We deliver a full range of governmental services of a 
complexity unsurpassed in the U.S. except by the Federal 
Government, and we operate businesses of a size and scale on 
par with almost any private businesses. Yet, we typically do so 
with the human resources of a small town.
    Some of our tribes in our region exceed 10,000 population 
and some exceed 200. So we have a wide range of the number of 
tribal members in our reservations within our ATNI borders.
    With these observations in mind, I'd like to talk briefly 
on seven points that we would like to talk about. One, 
expanding self-determination and self-governance opportunities. 
That is a key. When you have found that tribes have been given 
the resources, they can do the job almost better than anyone 
else. Many ATNI tribes seek to contribute to restore their 
resources so they can once again be contributors to their 
spiritual, physical, and economic health.
    We ask that the Federal Government actively pursue with us 
as our lead under the directives of the Indian Self-
Determination Act, P.L. 93-638. This will include making the 
policy of self-determination a proactive element in the 
Congress and the Federal Government, not just a consequence of 
the tribe's insistence.
    Two, renewable energy development and climate change. ATNI 
member tribes are very interested in energy development. It is 
very important that we be at the table when these things are 
discussed. Many of our reservations are impoverished and have 
unemployment rates, like I said, that are much higher than any 
other part of the country. ATNI member tribes are currently 
exploring wind, biomass, solar, geothermal and hydroelectric 
energy opportunities, among others.
    While some tribes have experience in these areas, most do 
not and seek help in building expertise and knowledge to get us 
to the point where we can diversify. To this end we need to 
obtain capacity building grants to allow our tribes to create 
the expertise to diversify away from a reliance on casino 
gaming, which would be critical to ensuring that these projects 
progress and become successful.
    In addition, climate change is a very important aspect to 
the tribes in the Northwest. We are seeing the affects of 
climate change in the oceans, in the rain, in the snowfall, and 
we are seeing that adversely affect our fish and wildlife and 
our culture.
    Three, streamlining the fee-to-trust process. That is key 
for tribes, as you know, as you Senators know, half of our 
reservations were lost from trust-to-fee during the Dawes Act 
to the Indian Reorganization Act of 1934. And so we are trying 
to reacquire tribal lands so we can become productive and make 
these lands productive, and that is very, very important to 
ATNI tribes.
    This includes breaking down unnecessary barriers and 
expenses that the BIA requires of tribes, especially to put our 
reservation lands into trust status. That should be a no-
brainer. When you have an exterior boundary of a reservation 
and we buy an acre of land within that reservation, there 
should be no question. That should be able to be done 
immediately.
    Four, the enactment of the Carcieri fix to ensure that all 
federally recognized tribes have the opportunity to get land 
back into trust. I love preaching to the choir. You two know 
what needs to be done on the Carcieri fix. You know what you'd 
like to do. It's something that we need to work on continually.
    For example, the Sauk-Suiattle Tribe in our area is trying 
to get 1.5 acres into trust for a housing development. Because 
of Carcieri, that is not happening because they're rerecognized 
after 1934, and so we would continually ask that you do your 
best to try to ensure that a Carcieri fix is put in place this 
year.
    Five, trust reform. It's an area where ATNI has been a 
national leader for several years. ATNI tribes have been 
working very hard to make sure that the United States' trust 
responsibility will be and continually does do what it's 
supposed to do for the tribes, not only in the Northwest but 
across the U.S.
    The Trust Reform Act of 2005 introduced as H.R. 4322 in the 
109th Congress was a bill that was worked on extensively by the 
ATNI tribes in our organization. Looking ahead we hope that the 
Committee will consider these views as it considers other bills 
and initiatives relating to administration of Indian trust 
assets.
    Six, federal and state taxation. This is very, very 
important, because as you know, Indian lands are not subject to 
federal taxes, and the property that is owned by tribes are not 
subject to taxes.
    For too long Indian tribes have been at a disadvantage in 
the area of taxation. I would like to give you one example. In 
Thurston County in southwestern Washington, the Chehalis Tribe 
has invested over $170 million in a hotel convention center and 
water park known as the Great Wolf Lodge, and Thurston County 
has taken upon themselves to file a lawsuit and say that the 
tribe must pay taxes on properties that are on their tribal 
lands that they own in trust, and the Courts have agreed and so 
we are asking that a legislative fix be implemented as soon as 
possible to make sure that these types of activities do not 
occur in the future where lands that are in trust are not 
taxed. That's like Skagit County trying to tax a military base 
within our borders. It's just not going to happen.
    The Chairman. Mr. Cladoosby, I want to ask you to summarize 
if you can so I can have time for the rest of the witnesses.
    Mr. Cladoosby. Sure. No problem.
    Seven, I'm finally to my last point here, natural 
resources. Natural resources is and will always be an important 
part of the Northwest. We rely heavily on our natural 
resources. We rely on the fish, the game, the shellfish, 
everything that you see out there to sustain ourselves for our 
culture, and so it's important that we continue to work on 
restoring and implementing policies that will make sure that 
our natural resources are always there now and seven 
generations in the future.
    Once again, thank you for giving me this opportunity, and 
if you have any questions, I'd be more than happy to answer 
them. Thank you.
    [The prepared statement of Mr. Cladoosby follows:]

   Prepared Statement of Hon. Brian Cladoosby, President, Affiliated 
                      Tribes of Northwest Indians
    Good morning Chairman Dorgan and members of the Committee. My name 
is Brian Cladoosby , and my traditional name is Speepots. I am the 
President of the Affiliated Tribes of Northwest Indians (ATNI) and the 
Chairman of the Swinomish Indian Tribe. ATNI appreciates the 
opportunity to testify on the economic and social issues affecting 
Indian tribes in the Northwest.
    Founded in 1953, ATNI represents 57 tribal governments from Oregon, 
Idaho, Washington, western Montana, Alaska, northern California, and 
Nevada. Today, I am proud to be able to highlight for the Committee 
some of the economic and social issues affecting Northwest Tribes. The 
Northwest Tribes are very diverse. The Northwest is home to Tribes with 
large reservations and natural resource based economies and others with 
very little, if any, land. Despite our ranging differences Northwest 
Tribes stand strong together under ATNI to face the challenges of 
ensuring our communities are healthy, safe and sustainable.
    First, I would like to share some thoughts. We, as Northwest 
Tribes, are learning more as we progress. We have learned that 
distributing income from casinos is not the answer. Indeed, just as 
would be imagined for any other community, free, windfall money is more 
likely to reduce motivation, destroy self-esteem, and aggravates the 
long endured and reinforced symptoms of poverty than it is to solve 
them. We have learned that job creation alone is not the solution. 
People accustomed to living outdoors, to whom hunting and fishing 
remain among the most valued possible human endeavors aren't 
necessarily drawn to windowless, smoke filed rooms lit with flashing 
lights or corporate style offices.
    Gaming has enabled many Northwest tribes to provide basic health 
care, education, and housing. We address many of those by-products of 
poverty with childcare, provide for law and justice, care for the 
elders, and drug and alcohol programs. We provide these social services 
not only to ourselves, but in many of the remote communities that are 
our homes. In many cases, we are the only providers of these services 
and make them available to our neighbors.
    Increasingly, the Northwest Tribes have been leaders in assuming 
direct managing of our natural resources. According to Bureau of Indian 
Affairs statistics, the Northwest Tribes and their enterprises support 
40,000 jobs and buy over a billion dollars a year in supplies and 
services, much of which supports our larger local communities. We 
deliver a full range of government services of a complexity unsurpassed 
in the U.S. except by the Federal Government. And we operate businesses 
of a size and scale on par with almost any private business. Yet we 
typically do so with the human resources of a small town. The largest 
Tribes in our region seldom exceed 10,000 in total population and 
smallest tribes go as low as 700 in population.
    With these observations in mind, below are some issues, concerns, 
and opportunities that ATNI sees with respect to economic and social 
issues for its membership.
    Expanding Self Determination and Self Governance opportunities is a 
key to the future of many ATNI Tribes. Many ATNI Tribes seek to 
continue to restore their resources so that they can once again be 
contributors to their spiritual, physical, and economic health. We ask 
that the Federal Government actively pursue with us our lead role under 
the directives of the Indian Self Determination Act (P.L. 93-638). This 
would include making the policy of self-determination a proactive 
element of the Congress and the Federal Government, not just a 
consequence of the Tribes' insistence.
    Renewable Energy Development and Climate Change: ATNI member tribes 
are very interested in energy development because it is a key to 
economic development for many Northwest Tribes, many of which are 
impoverished and have unemployment rates that are much higher than 
other areas of the country. ATNI members tribes are exploring wind, 
biomass, solar, geothermal, and hydroelectric energy opportunities, 
among others. While some Tribes have experience in those areas, most do 
not and seek help in building expertise and knowledge. To this end, the 
ability of Northwest Tribe to obtain capacity building grants to allow 
them to create the expertise to diversify away from a reliance on 
casino gaming will be critical to ensuring that these projects progress 
and become successful.
    In addition, several ATNI member Tribes, such as my own Tribe, the 
Swinomish Tribe, have climate change policies and are concerned about 
the effects of climate change in ocean, rain and snowfall, and changes 
in fish and wildlife, and in our culture.
    Streamlining the fee-to-trust process so lands reacquired by Tribes 
can become productive for them more quickly is also important to ATNI. 
This includes breaking down unnecessary barriers and expenses that the 
Bureau of Indian Affairs requires of Tribes to put even on-reservation 
land into trust status.
    The enactment of a Carcieri ``fix'' to ensure that all federally 
recognized Tribes can avail themselves of the opportunity to have land 
taken into trust for economic development or other purposes is a 
critical issue for ATNI. Although opponents have attempted to make this 
a gaming issue, the case negatively affects Northwest Tribes at the 
most fundamental levels. For example, the uncertainty caused by the 
decision has indefinitely delayed a fee-to-trust application submitted 
by the Sauk-Suiattle Indian Tribe for 1.5 acres for a housing 
development. A number of other Tribes in the Northwest are potentially 
affected by the decision.
    Trust reform is an area where ATNI has been a national leader for 
several years. ATNI's commitment to this issue is grounded in 
maintaining the integrity of the United States' trust responsibility 
that is, as you know, based upon the historical cession of millions of 
acres of ancestral lands by the tribes. In return for these lands, the 
United States government committed itself to protecting the tribes in 
the possession and occupancy of their remaining homelands. ATNI 
believes strongly that Congress should consider a comprehensive 
approach to trust management. ATNI and other tribal organizations spent 
significant time and energy in working with both this Committee in 
recent years on these issues, specifically developing Title III of the 
Indian Trust Reform Act of 2005 (introduced as H.R. 4322 in the 109th 
Congress) and transitioning the Office of the Special Trustee back to 
the Bureau of Indian Affairs. Looking ahead, we hope that the Committee 
will consider these views as it considers other bills and initiatives 
relating to administration of Indian trust assets.
    Federal and state taxation of Indian land and property is another 
area of concern and interest to ATNI and its member tribes. For too 
long, Indian tribes have been at a disadvantage in the area of 
taxation. For example, Thurston County, in southern Washington, is 
attempting to impose personal property taxes on permanent buildings on 
tribal trust land on the Chehalis Tribe's Reservation. Under a joint 
venture, the Tribe and its minority-interest non-Indian business 
partner use the buildings to operate a $170-million hotel, convention 
center, and water park known as the Great Wolf Lodge. The Tribe has 
invested in upwards of $86 million of its own cash, credit and sweat 
equity in the Great Wolf Lodge project and project is a sterling 
example of the benefits of non-gaming economic development to tribal 
and surrounding communities.
    For more than 100 years, Indian lands and property have been tax 
exempt. Because there is no federal statute that expressly preempts 
property taxes in this context, however, the Chehalis Tribe has been 
forced to defend its rights through expensive and burdensome 
litigation. This problem is not confined to the Northwest. Renewable 
energy projects on Indian lands, which necessarily require non-Indian 
partners to be viable, have also been targeted by state and local 
governments in the Great Plains and the Southwest for personal property 
taxes.
    The Committee can help Tribes address these issues through 
legislative reforms that will bring more substantial private investment 
and in turn economic opportunity to Indian Country. In this regard, 
ATNI encourages the Committee, together with the Senate Committee on 
Finance, to explore opportunities to clarify that (1) Tribal majority-
owned businesses should be treated like other Tribal businesses and not 
taxed locally; and (2) improvements to Indian Trust Land should be 
treated like the underlying real property for state and local tax 
purposes. Given the potential benefits of these clarifications for 
renewable energy development in Indian country, ATNI suggests that they 
would be candidates for inclusion in the energy package that the Senate 
is expected to consider next month. Unless Congress clarifies existing 
law in this manner, Tribes will continue to face obstacles in moving 
away from casinos and into green energy, hospitality, and countless 
other areas of non-gaming economic development.
    Housing is still far more substandard than for the rest of the 
country. An estimated 200,000 housing units are needed immediately in 
Indian Country and approximately 90,000 Native families are homeless or 
under-housed. Overcrowding on tribal lands is almost 15 percent, and 11 
percent of Indian homes lack complete plumbing and kitchen facilities. 
Although Economic Development produces much needed jobs it is slower to 
improve the housing conditions of Native Americans. ATNI recognizes 
that without faster results to improving housing conditions tribes 
continue to maintain federal funding dependency. ATNI urges congress to 
maintain the levels of housing funding for budget year 2011.
    Natural Resources have always been at the center of our cultures 
for the Pacific Northwest Tribes, a fact no less true today than when 
many of our tribes signed agreements with the U.S. government. These 
resources are essential for our spiritual, economic and cultural 
survival as Indian people. The tribes of the Pacific Northwest depend 
economically on healthy salmon, wildlife, forests as well as on optimal 
water and air quality. Habitat destruction, pollution, unregulated 
water withdrawals, poor land-use planning, and many other environmental 
issues today threaten to make meaningless our reserved rights. ATNI 
asks for adequate and efficient funding of federal reserved obligations 
through tribal natural resources management programs, projects, and 
agreements. Flat funding levels and inflation have stripped us of 
buying power, leaving us with real funding equal to that we received 30 
years ago, despite the fact that our management responsibilities have 
grown exponentially. Areas in critical need of funds are water 
resources management, hatcheries, habitat restoration, timber and 
wildlife management. Our reserved rights are dependent on healthy 
natural resources, which in turn depend on a healthy environment. 
Healthy environments lead to healthy communities and healthy economies.
    I appreciate the opportunity to provide this testimony before the 
Committee. At this time, I would be happy to answer any questions that 
the Committee may have.

    The Chairman. We thank you once again for your appearance 
before the Committee and appreciate your testimony. Next we'll 
hear from the Honorable Chief Allan who is the Tribal Chairman 
of the Coeur d'Alene Tribe in Plummer, Idaho. Mr. Allan, you 
may proceed.

 STATEMENT OF HON. JAMES ALLAN, TRIBAL CHAIRMAN, COEUR D'ALENE 
                             TRIBE

    Mr. Allan. Thank you, Mr. Chairman. First of all, I'd like 
to thank you, Mr. Chairman, and Senator Cantwell for taking the 
opportunity to let me testify here before you on issues that 
affect the Coeur d'Alene Tribe. I also want to commend you two 
on your efforts this past year for fighting the good fight for 
Indian people. I think, like you said, this past year it's been 
a long time coming for Indian people.
    As I sat down last night and thought about what I was going 
to say today and think about what was to be the best use of 
time and not repeating what everything's going to be said here 
today, I actually kind of got angry. I was thinking about all 
the testimonies that tribal leaders have done over the last 50 
years to the Indian Affairs Committee, to various committees, 
fixes to what will help Indian people. And I got angry because 
it was an insult to Indian people, because top CEOs of 
companies don't have to come and--you know, they have an idea, 
they have a business idea, they put it forward. And that's what 
the Coeur d'Alene Tribe has done since my tenure as chairman 
over the last six years, we own businesses in Spokane, 
Washington that's off the reservation. We own businesses in 
Coeur d'Alene which is off our reservation. We own a bunch of 
land that's off our reservation because we have to for 
survival. We can't sit around and wait for a Congressional fix 
on everything all the time.
    And so with that I want to get to just a couple things I 
really wanted to say today. The Supreme Court boldly stated if 
we've got something wrong here, we invite Congress to fix it. 
With all due respect to members of the Court, that's what we 
want. We want Congress to fix it.
    And I want to just concentrate on just a couple cases. As 
set forth in U.S. v. Montana and Oliphant v. Suquamish Tribe 
have caused more confusion and erosion to the tribal 
sovereignty than possibly any two other cases.
    This is my opinion.
    The Montana case has diminished the Tribe's ability to 
control their own destiny, and that's sad, as tribes want to 
control their own destiny. We don't want to sit back and have 
to wait and get answers.
    You know, this case, you know, unfavorable rulings 
regarding taxation, land use, regulation of hunting and 
fishing, so these things are important to tribes and actually 
all people. The Oliphant v. Suquamish Tribe has endangered 
literal lawless zones on some reservations. And I know this 
recent Law and Order thing is going to help, but there's some 
tribes that have checkerboard reservations like ourselves who 
it does help them. You know, we do have negotiated compacts 
with the counties for law enforcement, and we have done that. 
But I'm just saying that some of these issues will really help 
us.
    And like the Chairman and President of ATNI said--I wanted 
to just touch base a little bit on land in trust. I sat down 
with the BIA and asked them What's the problem here? I know, 
for example, we pay hundreds of thousands of dollars to both 
our counties that lie within our reservation because of our tax 
bill, and I guess I just asked them point-blank If there is 
going to be a fix to the land in the trust or if there isn't 
going to be a fix, let us know because I'm sure tired of 
wasting money on lawyers going over there all the time and 
knocking on the door and saying Are we going to get land in the 
trust? If not, be honest with us. That's all the tribes are 
asking for is be honest with us.
    We are just like anybody else, just be honest with us. If 
something can't get done, you know, it can't get done, but 
let's be honest about it. And that's what I told the Secretary 
of the Interior and he smiled and he actually helped--right 
after that we got like 400 acres put into trust that were 
sitting on a desk for a long time as just red bureaucratic 
tape.
    And that's all I guess we're saying, and with that, I don't 
want to take much more of your time. We have submitted written 
testimony. Again, I thank you guys for all your hard work. Like 
he said, we're preaching to the choir because we know--it's 
actually sad that you're going to be retiring and we are losing 
a Chairman like you that fights the good fight for Indian 
Country and you're going to surely be missed, and with that I 
will turn the mic over to my colleague, Chairman Mike Finley.
    [The prepared statement of Mr. Allan follows:]

Prepared Statement of Hon. James Allan, Tribal Chairman, Coeur d'Alene 
                                 Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Chairman Allan, thank you very much. And next 
we'll hear from the Honorable Michael Finley, Business Council 
Chairman of the Confederated Tribes of Colville Reservation, 
Nespelem, Washington.

STATEMENT OF HON. MICHAEL FINLEY, CHAIRMAN, CONFEDERATED TRIBES 
                  OF THE COLVILLE RESERVATION

    Mr. Finley. Chairman Dorgan, Senator Cantwell, it's truly 
an honor to be here today. I too would like to thank the 
Puyallup Tribe for hosting us, wonderful venue here. They're 
doing good things. It's a good model to follow. I'll try not to 
take up too much of your time today.
    As you stated, I am the Chairman of the Colville 
Confederated Tribes of Northeast Washington State. We're proud 
of our reservation. It's 1.4 million acres as Chairman 
Cladoosby mentioned earlier.
    The Chairman. Mr. Allen, could you turn your microphone 
off? All right. I think that will fix it.
    Mr. Finley. I was wondering, I thought I had magic.
    Mr. Cladoosby. You do.
    Mr. Finley. Thank you. So we're a natural resources rich 
tribe. You know, we're bounded on the east with the Columbia 
River all the way down south and on the west, the Okanogan. So 
we are extremely rich with our natural resources. I want to 
thank you guys for all your work on the Indian Health Care 
Reauthorization as well as the Tribal Law and Order Act. Those 
are monumental Acts that are going to directly benefit not only 
the Indians in our state but beyond across the United States.
    But as you mentioned earlier, a lot's been done this year, 
but more can be done. In my mind the next big ticket item is 
trust reform. Notwithstanding what happens with Cobell, I think 
trust reform is the next big one that we would like to see the 
Committee to address next. As I mentioned, being from the 
Colville Reservation, we are rich in natural resources. 
Historically, we've been a timber resources tribe. But with the 
downturn in the housing market, the housing starts being down, 
it's had a direct impact on our economy at Colville. It's been 
our cash cow for years.
    We've had to close two of our mills because of it, so not 
only have we lost jobs, the 250 jobs of mostly tribal members 
who are employed at mills, but it's the subcontractors who 
supply the mills with the timber. And consequently, it's also 
had an effect on stumpage dollars that we receive back that 
goes straight to the tribal revenues that provide the needed 
money to many of our essential services that we serve our 
people. So we are seeing a big strain on our services within 
our tribal organization. We are extremely complex. We offer a 
lot more services than a lot of other tribes don't have or, you 
know, just don't have the resources to support, and so that's a 
big problem for us and so we're looking at different ways where 
we can curtail that, but there's no easy answer. We don't have 
control over the national housing market.
    When that turns around, we might look at making improvement 
within our mills to get some of those reopened. We're also 
looking at leasing them out because that's how desperate the 
situation is.
    Renewable energy, we are also looking at that. We have a 
power project with the Washington State University on canola 
and different things within our boundaries that's shown 
dramatic results, good results. We also have a cogeneration 
plant that we have been planning up to 40 megawatts. We are 
hoping to use the Tribal Forest Protection Act to maybe 
hopefully get help to feed the cogeneration plant from some of 
the contiguous federal properties that are on the northern 
boundary of the Colville Reservation.
    I'd also like to mention that we're heavily involved and 
watching closely the ``America's Great Outdoors,'' they've been 
having hearings across the nation on that. It's going to do a 
lot of different things for tribes. It's going to do a lot of 
things in general for just, you know, the treasured landscapes 
in general that are talked about. And underneath that 
initiative, but it's going to allow tribes to do a lot of 
different things, either co-manage or get lands that otherwise 
wouldn't be available to them.
    So without further ado I just want to thank you for 
allowing me this opportunity today and I'll pass the mic on. 
Thank you.
    [The prepared statement of Mr. Finley follows:]

   Prepared Statement of Hon. Michael Finley, Chairman, Confederated 
                   Tribes of the Colville Reservation
    Good morning Chairman Dorgan, Senator Cantwell, and members of the 
Committee. On behalf of the Confederated Tribes of the Colville 
Reservation (``Colville Tribes'' or the ``Tribes''), I would like to 
thank the Committee for convening this hearing and allowing me to 
testify. My name is Michael Finley and I am the Chairman of the 
Colville Tribes and am testifying today in that capacity. In addition, 
I also serve as the Chairman for the Intertribal Monitoring Association 
on Indian Trust Funds, a national organization comprised of 65 
federally recognized tribes from all regions of the country.
    Today, I am pleased to share the Colville Tribes' ideas and 
experiences as the Committee considers its agenda for the remainder of 
the year and into the 112th Congress. As a rural, land-based Indian 
tribe, the economic and social issues affecting the Colville Tribes 
mirror those of similarly situated tribes in the Great Plains and 
elsewhere.
    Before I begin, I would first like to express my thanks to the 
Committee for its work in securing passage of the Tribal Law and Order 
Act of 2010. The Colville Tribes was pleased to have been able to 
participate in two oversight hearings that the Committee held on law 
enforcement during this Congress and applauds the Committee for 
crafting legislation that addresses such a broad scope of public safety 
concerns in Indian country. This law will make an immediate, on-the-
ground impact on the Colville Reservation and on the safety of the 
Colville Tribes' citizens.
Background on the Colville Tribes
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of twelve aboriginal tribes and bands from all across 
eastern Washington State. The present day Colville Reservation is 
located in north-central Washington State and was established by 
Executive Order in 1872. At that time, the Colville Reservation 
consisted of all lands within the United States bounded by the Columbia 
and Okanogan Rivers, roughly three million acres. In 1891, the North 
Half of the 1872 Reservation was opened to the public domain. The North 
Half consists of approximately 1.5 million acres between the Canadian 
border and the northern boundary of the present day Reservation. The 
Colville tribal members exercise reserved hunting, fishing, and 
gathering rights on the North Half and the Colville Tribes maintains 
strong political and economic interests in this area.
    Today, the Colville Tribes has nearly 9,400 enrolled members, 
making it one of the largest Indian tribes in the Northwest. About half 
of the Tribes' members live on or near the Colville Reservation. 
Between the tribal government and the Tribes' enterprise division, the 
Colville Tribes collectively accounts for more than 1,700 jobs--making 
it one of the largest employers in north central Washington.
Impact of the National Economic Downturn on the Colville Tribes
    The Colville Reservation contains more than 660,000 acres of 
harvestable timber. Although the Colville Tribes and its enterprise 
divisions operate a diverse range of businesses, timber and wood 
products has been and remains the Tribes' largest source of revenue for 
governmental programs and services. The Colville Tribes owns a 
traditional sawmill, Colville Indian Precision Pine (CIPP), and a 
plywood manufacturing facility, Colville Indian Power and Veneer 
(CIPV). CIPV is the only tribally owned and operated plywood plant in 
the U.S.
    The health of the Colville Tribes' wood products industry is tied 
closely to the nation's housing market. The severe downturn in new 
housing construction has impacted the Colville Tribes particularly hard 
and has weakened demand for wood products generally, which has resulted 
in lower prices and decreased sales. The depressed market conditions 
forced the Colville Tribes to make the extremely difficult decision to 
suspend production and close CIPV in January 2009, and then CIPP in 
November 2009, until market conditions improve.
    The closure of both mills has directly resulted in the loss of more 
than 350 jobs for an already economically depressed rural area, not 
including the loss of the secondary jobs that the facility supports, 
such as contract loggers and truck drivers. The shutdown has also put 
increased strain on the Tribes' social services programs and personnel. 
These tribal government programs, most of which are funded by the 
Tribes' stumpage revenue (in addition to third party grants), were 
already stretched thin with the inherently high unemployment rate on 
the Colville Reservation. Like state and local governments, the current 
state of the national economy has presented the Colville Tribes' 
government with extremely difficult choices on how best to provide for 
its citizens.
    Although the condition of the housing and wood products market is 
an issue national in scope, this Committee nonetheless has the 
authority to press initiatives that will help the Colville Tribes and 
similarly situated tribes get through these difficult times and plan 
for the future. Most notably, the Native American Employment Act of 
2010 (S. 3471), in addition to bolstering the Indian Guaranteed Loan 
Program, would also help the Colville Tribes by enabling it to reduce 
administrative costs in its delivery of social services and job 
training programs. Specifically, section 5 of that bill would update 
Public Law 102-477, commonly known as the ``477'' program, and the 
Colville Tribes has estimated that it would be able to save 
approximately $500,000 annually if those provisions were to become law.
    The Colville Tribes encourages the Committee not only to continue 
to seek passage of S. 3471 this year, but also to continue to explore 
other initiatives in the next Congress that will increase the 
efficiency of tribes' delivery of social services to their citizens.
Trust Reform As Enhancing On-Reservation Economic Development
    As the Committee is aware, Northwest tribes have been leaders for 
the past several years in efforts to reform the manner in which the 
federal government administers tribal trust resources. The Affiliated 
Tribes of Northwest Indians (ATNI) has established a trust reform 
workgroup of tribal leaders and technical staff to comment and provide 
recommendations on initiatives that affect the trust relationship, and 
the Colville Tribes has been an active participant in these efforts. 
The ability of Indian tribes to enter into leases, have fee land taken 
in trust, and to otherwise expedite federal approval of transactions 
involving trust property is a critical component of enhancing on-
reservation economic development. These issues are important not only 
to large land-based Indian tribes like the Colville Tribes, but also 
for tribes with smaller land bases in western Washington and other more 
populous areas. In this regard, the Colville Tribes applauds the 
Committee's work on the HEARTH Act of 2010 (S. 3235), which would allow 
tribes on a voluntary basis to lease tribal trust land to third parties 
without the Bureau of Indian Affairs' approval.
    Regardless of the outcome of the proposed settlement of the Cobell 
v. Salazar litigation, the Colville Tribes is hopeful that the 
Committee will explore broad scale forward-looking trust reform in 
preparation for the next Congress. With the enactment into law of the 
Tribal Law and Order Act and the Indian Health Care Improvement Act 
this year, it makes sense that trust reform should be the next big-
ticket item on the Committee's agenda.
Energy Development and Natural Resource Management on Indian Lands
    Renewable energy development has been of particular interest to the 
Colville Tribes as the Tribes seek new ways to utilize its land base to 
promote on-reservation economic development and to diversify its 
economy. Utilizing grants and technical assistance from both the 
Department of the Interior and the Department of Energy, the Colville 
Tribes is hoping to take advantage of the growth in the biofuels 
market. The Tribes is developing a cogeneration facility on the 
Colville Reservation that will utilize woody biomass from the Tribes' 
forestry activities, both on-reservation and on adjacent federal lands. 
In this regard, the Indian Energy Parity Act of 2010 contains several 
provisions that will greatly assist this and other projects that the 
Colville Tribes is pursuing.
    Closely related to energy development is natural resource 
management, another issue of great interest to the Colville Tribes and 
other Northwest tribes. The Colville Tribes has been fortunate to have 
been able to work with the Department of the Interior in its 
implementation of ``America's Great Outdoors,'' an Administration 
initiative focused on conservation and acquisition of federal land. The 
Department intends for this initiative to be a mechanism for tribes to 
reacquire fee land into trust and manage federal lands to which tribes 
have historical or cultural connections. One of the barriers to 
implementing this initiative, however, has been the inability of Indian 
tribes to access the Land and Water Conservation Fund, which would be 
used to fund these acquisitions. This initiative holds great potential 
to bolster tribal economies nationwide and the Colville Tribes urges 
the Committee to examine ways to assist the Department in implementing 
it as we look ahead to 2011.
    The Colville Tribes appreciates the Committee convening this 
hearing and appreciates its consideration of these and other issues 
identified by Northwest tribes. We look forward to working with the 
Committee during the remainder of this year and in the 112th Congress.

    The Chairman. Mr. Finley, thank you very much. Next we will 
hear from the Honorable Leo Stewart who is the Vice Chairman of 
the Board of Trustees of the Confederated Tribes of the 
Umatilla Indian Reservation, and he's from Pendleton, Oregon. 
Thanks for joining us. You may proceed.

    STATEMENT OF HON. LEO STEWART, VICE CHAIRMAN, BOARD OF 
     TRUSTEES, CONFEDERATED TRIBES OF THE UMATILLA INDIAN 
                          RESERVATION

    Mr. Stewart. Good morning. Thank you for having this 
opportunity to come forward and speak on our issues.
    Water is real crucial to the Indian people and to the 
communities. And it's the most social and economic issues we 
face at home. It's essential to our culture and to our efforts 
to develop a tribal economy for our people and our future. Our 
reservations overappropriated Umatilla River Basin. We have 
prioritized water rights settled in the Umatilla Basins, and in 
neighboring Walla Walla basins we're working with partners in 
the federal, state, and the community to establish irrigation 
and with irrigation districts. And each basin is to provide for 
water rights negotiation which we hope to commence next year.
    There's a need for more resources to facilitate tribal 
water rights settlements and to fund the implementation of 
these settlements that had been approved by Congress. The 
Federal Government has an obligation to fund these settlements 
because as we experienced at Umatilla, the Federal Government 
failed to protect the senior water rights reserved under our 
treaties, and in some cases it was Federal Government that 
constructed water projects that served non-Indian communities 
which ignored tribal rights and needs.
    Since I've been talking about water, the implication and 
operation of the river treaty between the Canadian and the 
United States efforts arising interest, natural resources of 
the Umatilla Tribe and many other tribes, that treaty as 
entered into by the United States and Canada in 1961 are 
proposed for flood control and hydroelectric power generation 
only and it has no set end date. Though it can be terminated in 
2024, and then at least has a ten-year notice on it. Therefore, 
decisions need to be made before 2014 to provide the best 
opportunity to improve the treaty.
    Fifteen tribes in the Columbia basin have been working 
together for over a year to consider the effects of the treaty 
on our interest. We are seeking assurance that the United 
States government will address tribal interests when this 
treaty is amended.
    The two goals that the Columbia Treaty has crossed, first 
the tribal representation on the Columbia River review team and 
on the United States negotiating team if the treaty is amended. 
And the management of the Columbia River Basin is to achieve 
ecosystem functions coequal with the flood control and power 
production, including measures that restore and preserve tribal 
resources and cultures.
    And Senator Cantwell, the next two issues which can aid 
tribal economic development need to be addressed by the Senate 
Finance Committee. Tribal governments currently have limited 
authority to issue tax exempt bonds a basic economic 
development tool available to state and local governments. The 
Umatilla Tribe supports amending the Indian Tax Status Act so 
that the tribal governments can have the same authority and to 
issue tax exempt bonds as do the state and local governments.
    Without that authority tribal governments are placed at a 
disadvantage with respect to economic and development 
opportunities to comparison of state and tribal governments. 
Employment opportunities for tribal members are really 
essential here to improve the economic and social lives of our 
communities.
    To address the education needs for our youth the tribal 
government chartered the Nixyaawii School on our reservation 
for the Oregon State 16R School District and due to the lack of 
state funding, we have provided annual subsidies to support the 
school in order to improve the quality of education offered at 
Nixyaawii. There is a great need for additional financial 
support.
    If Indian tribes could be included within the definition of 
local education agencies under 6 the Elementary and Secondary 
Education Act, tribes would be able to apply for more federal 
funding, education grant funding to improve tribal educational 
facilities and programs.
    So the Umatilla tribes strongly encourages the Senate to 
approve the Cobell settlement and we appreciate where it's at 
and continue to go forward on that.
    We finally applaud the passage of the Tribal Law and Order 
Act. We thank the Committee for their effort to field this bill 
to become law, and I want to thank you Senators for your 
attention for these important issues that was all brought up, 
and especially a lot of the social issues that was brought to 
the table here by the other tribal leaders that are important 
across Indian Country and we appreciate that. Thank you.
    [The prepared statement of Mr. Stewart follows:]

    Prepared Statement of Hon. Leo Stewart, Vice Chairman, Board of 
    Trustees, Confederated Tribes of the Umatilla Indian Reservation
    The Confederated Tribes of the Umatilla Indian Reservation 
(``Confederated Tribes'') appreciates the opportunity to provide the 
Senate Committee on Indian Affairs with written testimony regarding its 
priorities on economic development and social issues. While the issues 
listed below are high priorities for the Confederated Tribes, please do 
not view this as an exhaustive list. Due to the broad subject matter 
involved, and the short amount of time afforded for developing written 
testimony, the Confederated Tribes requests the opportunity to 
supplement this written testimony to further expound upon the 
identified issues and identify further priority issues in subsequent 
discussions with tribal staff and policy bodies.
    Following is a list of seven economic development and social issues 
that are of high priority to the Confederated Tribes:

         1. Tribal Water Rights Settlements. There is an existing need 
        for more resources to facilitate tribal water rights 
        settlements and to fund the implementation of those 
        settlements. The Confederated Tribes have learned from 
        experience that substantially more resources are necessary to 
        fund the required studies to quantify and negotiate a 
        settlement of its reserved water rights. Additionally, as a 
        ``Palmer-Stevens'' treaty tribe with water rights in many river 
        basins, the Confederated Tribes and the Department of Interior 
        have found unworkable the department's policy that a tribe must 
        bring a single comprehensive settlement to the table. Lastly, 
        with a number of tribal water rights settlements pending before 
        Congress and awaiting either authorization or funding, it is 
        clear the Committee needs to demonstrate the importance of 
        completing these settlements efficiently and expeditiously so 
        that settlements in negotiation--such as that of the 
        Confederated Tribes--are not delayed further. The Confederated 
        Tribes support the Committee's proposal to hold field and 
        oversight hearings specifically on the status and experience of 
        a tribes that provide working examples of tribes with 
        implemented settlement, tribes with authorized but not 
        completed settlement, and tribes in the process of negotiating 
        a settlement. These case studies would help demonstrate the 
        need for policy changes necessary to facilitate settlements, 
        and increase the understanding of the import of Indian Water 
        Rights Settlements to regional and national economic 
        development and achieving national water supply certainty.

         2. Tribal Tax Exempt Bond Authority. Tribal governments 
        currently do not have the ability to issue tax exempt bonds, a 
        basic economic development tool available to state and local 
        governments. The Confederated Tribes supports amending the 
        Indian Tax Status Act to make it clear that tribal governments 
        have the same authority to issue tax exempt bonds as do state 
        and local governments. This would permit tribes to finance 
        facilities like golf courses, RV parks and campgrounds and 
        public utilities using tax exempt financing as do state and 
        local governments. Without the authority to issue tax exempt 
        bonds, tribal governments are placed at a disadvantage with 
        respect to economic development opportunities in comparison to 
        state and local governments.

         3. Tax Credits. Expanding on-reservation employment 
        opportunities for tribal members is absolutely essential to 
        improving their economic and social life. Attracting employers 
        to the Umatilla Indian Reservation is critical to providing 
        increased employment opportunities. As a means of inducing 
        employers to locate on-reservation, the Confederated Tribes 
        urges multi-year Congressional extension or renewal of both the 
        Accelerated Depreciation Expense and the Indian Employment Tax 
        Credit. Multi-year extension would provide private investors 
        the necessary planning and negotiating time to utilize these 
        credits in our shovel ready light industrial park. Without the 
        multi-year extension investors cannot figure these incentives 
        into any proposed projects.

         4. Tribes Designated as Local Education Agency. The 
        Confederated Tribes has chartered the Nixyaawii Community 
        School on its Reservation with the Oregon State 16R School 
        District. Due to a lack of state funding, the Confederated 
        Tribes has provided annual subsidies to support the school. In 
        order to improve the quality of education offered at Nixyaawii, 
        there is a need for additional financial support. If Indian 
        tribes could be included within the definition of Local 
        Education Agencies under the Elementary and Secondary Education 
        Act, tribes would have access to apply for more federal 
        education grant funding to improve tribal educational 
        facilities and programs.

         5. Columbia River Treaty. The Confederated Tribes and 14 other 
        tribes in the Columbia River Basin have met many times over 
        that the past year to discuss common issues of concern and 
        goals with respect to this Treaty between the U.S. and Canada, 
        which formally operates only for purposes of flood control and 
        power generation. This narrow focus has negatively impacted 
        tribal resources and economies. The 15 tribes are seeking 
        formal representation and participation on the Review Team that 
        is conducting a multi-year review to develop options to provide 
        the State Department with respect to terminating, renegotiating 
        or continuing the Treaty, decisions the State Department must 
        make prior to 2014. The goal is achieve consideration of 
        ecosystem function on a par with flood control and power 
        generation.

         6. Cobell Settlement. The Confederated Tribes strongly 
        encourages the Senate to approve the Cobell settlement (the 
        House of Representatives has already approved it). If approved, 
        the settlement would not only compensate individual Indians for 
        past mismanagement of their Individual Indian Money accounts, 
        but would also provide 2 billion dollars over a 10-year period 
        towards the purchase of fractionated interests in allotted 
        trust lands on Indian reservations. Those interests would be 
        transferred to tribal ownership, facilitating consolidation of 
        ownership on allotments and thus improving the ability of 
        tribal governments to manage and use of reservation lands.

         7. Law and Order. The Confederated Tribes closely monitored 
        and provided testimony regarding the recently enacted Tribal 
        Law and Order Act. Effective law and order is critical to 
        social life on the Umatilla Indian Reservation as well as 
        economic development. Because of the complex rules governing 
        criminal jurisdiction for on-reservation crime, and given the 
        large non-Indian population living within the checkerboarded 
        Umatilla Indian Reservation, the enactment of the Law and Order 
        Act represents a critical step toward improving federal and 
        tribal prosecution of persons engaged in criminal activity on 
        the reservation.

    The Confederated Tribes reiterates that these seven issues are not 
intended to represent the full breadth of its priorities concerning 
economic development and social issues. We would appreciate the 
opportunity to follow up with additional written testimony for the 
Committee's consideration. Again, the Confederated Tribes appreciates 
this opportunity to provide input to the Committee regarding these 
important issues.

    The Chairman. Mr. Stewart, thank you very much for being 
here. And finally we will hear from the Honorable Kathleen Tom, 
the Tribal Council Secretary to the Confederated Tribes of the 
Grand Ronde Community of Oregon. We appreciate your being here 
and you may proceed.
    Ms. Tom. That was close. It's ``Grand Ronde.''
    The Chairman. Grand Ronde.
    Ms. Tom. Yes.
    The Chairman. All right. I've got it. Next time, as Mr. 
Cladoosby knows, I never make the same mistake twice.

        STATEMENT OF HON. KATHLEEN TOM, TRIBAL COUNCIL 
SECRETARY, CONFEDERATED TRIBES OF THE GRAND RONDE COMMUNITY OF 
                             OREGON

    Ms. Tom. Okay. Good morning, Senator Dorgan and Senator 
Cantwell and the Committee. My name is Kathleen Tom. I'm one of 
the Tribal Council Members of the Confederated Tribes of Grand 
Ronde. I'm one of the officers. I hold the secretary position.
    I'm proud to be here today representing my tribe and my 
5,000 tribal members. Sometimes they think that council members 
sit around and do nothing, but when they hear the things and 
when we report back to them some of the things that are going 
on here and in our state and with our other governments, it's 
like, oh, the light comes on that, yes, we really do do work.
    My testimony today is in part about the struggles of the 
Grand Ronde, some of the things that have happened to the Grand 
Ronde people. The Confederated Tribes have been in the 
Northwest area for many, many thousands of years, and during 
the treaty-making era we had seven ratified treaties; I won't 
go over them, they're in my written report.
    Our reservation lands were abundant. We had natural 
resources, we had timber, we had water, we had fish and 
wildlife and we had plants and food, and it was very abundant. 
And through the treaties our lands were ceded to the Federal 
Government, and so our tribe feels like we've prepaid taxes by 
our lands and we've prepaid our health care by our lands and 
all of our resources.
    The Confederated Tribes of Grand Ronde is pleased to see 
Congress's action in specifically directing money to Indian 
Country. I think Mr. Echohawk said a beautiful thing that 
finally tribes are people of prayer and finally our prayers are 
being answered by the Law and Order Act, by the Indian Health 
Care Act and by having Indian people in positions that really 
listen to Indian people.
    Those government-to-government relationships and those 
consultations with Indian tribes is first times, and it's 
wonderful, and so I think that our prayers are finally being 
answered not only here at home but also in Washington, D.C. 
with the leaders there. So I thank you for that.
    We talk about the recession here in the United States, but 
tribes have been in recession for decades. We've lived 
recession for decades. And I think you brought that up, 
Senator, about tribes going without health care, not being 
fully funded, not having enough money appropriations and to 
help our people, so I thank you for those. I believe that our 
prayers are being answered.
    Economic development requires good roads, good schools and 
good phone systems and good health care. And there's been a 30-
year gap in that history and we are starting at ground zero. 
The effort to build and sustain our community has been a 
monumental challenge and significantly more complex than faced 
by a mature establishment municipality with a continuous 
history of development.
    However, we continue to advance our mission to improve the 
quality of life for our tribal members. We do have housing and 
we do have health care that the tribe pays for, and we do have 
education dollars and we are very thankful our prayers have 
been answered.
    Since restoration in 1984 the Tribe has had this small 
pocket of time to get back on our feet, build our 
infrastructures and make sure that we have those dollars for 
education and housing and health care, and we're blessed by 
that. We really are a blessed tribe.
    We've invested over $100 million to date towards that 
effort, and however, the ultimate objective requires additional 
investment and we're hoping that the government does help us 
with those additional dollars to continue that effort.
    I request the Committee and Congress to fulfill their 
treaty obligations of this nation by appropriating more 
economic dollars to develop in Indian Country in the 2011 
budget, and I think I was listening to the news and there was 
some good news from the President that he was going to do that.
    With the land base of almost 12,000 acres and without 
adequate federal funding, Grand Ronde has relied on its on-
reservation casino to be able to do the things that I just 
spoke of. We do oppose the efforts of some tribes locating near 
our ancestral homelands. We oppose off-reservation gaming, and 
we believe that this is wrong. Such moves outside of ancestral 
lands to build casinos can compromise the sovereignty and 
culture of other tribes which have a genuine connection to the 
land.
    And in a memo dated June 18th by Secretary Salazar I 
understand that the department currently has a two-part 
application under review, and we would like to recommend that 
you undertake a thorough study of these issues, review the 
guidance, the current guidance and regulatory standards to 
guide the Department's decision-making when they decide that 
two-part application.
    During this review we would like the office to engage in 
government-to-government consultation consistent with the 
policy of this administration to obtain from Indian tribes. I 
realize that engaging in this exercise in connection with the 
application of the two-part test may cause some delay, but 
given the Department's discretion in this area, we believe it's 
appropriate.
    We ask the Committee to ensure deliberations between 
government-to-government consultation occur, that the Bureau 
makes determinations on off-reservation proposals such as other 
tribes building casinos off their reservation.
    Finally, the IRS has taken the position with our tribe that 
tribal members serving on our boards and committees have to pay 
taxes. We have those boards and committees delegated to do a 
lot of our culture or health--the committees that sit and are 
the eyes of the tribal membership, and the IRS is asking them 
to pay taxes on a small stipend that's for travel and their 
time on those committees. So we ask that you take a look at the 
IRS and they shouldn't have to pay those. And again, I will say 
that the tribes have prepaid their taxes with our land and our 
resources.
    And I want to thank the Committee for coming here today. 
Like I said, I think our prayers are being answered in Indian 
Country, and finally our prayers are being heard in Washington, 
D.C. and I think we're moving in a wonderful direction. And I'm 
sorry to hear, Senator Dorgan, that you're not going to be with 
us, and my tribe wants to send you their best wishes in 
whatever you choose to do and thank you, Committee, for hearing 
me today.
    [The prepared statement of Ms. Tom follows:]

  Prepared Statement of Hon. Kathleen Tom, Tribal Council Secretary, 
       Confederated Tribes of the Grand Ronde Community of Oregon
    My name is Kathleen Tom. I am the Tribal Council Secretary of the 
Confederated Tribes of the Grand Ronde Community of Oregon. I am proud 
to be here today representing over 5,000 Tribal members.
    My testimony today is shaped in part by a life of service to my 
Tribe. Four generations of my family have served on Tribal Council. My 
father served on Tribal Council for eight years. Before being elected 
to Tribal Council, I was a Tribal employee for thirteen years. I am now 
in my second three-year term on Tribal Council.
    The peoples of the Confederated Tribes of Grand Ronde have lived in 
western Oregon for thousands of years. During the treaty-making era, 
our Tribes entered into seven ratified treaties with the federal 
government. Those treaties were the 1855 Treaty with the Kalapuya, two 
treaties signed in 1853 and 1854 with the Rogue River, an 1854 treaty 
with the Umpqua and Kalapuya, an 1853 treaty with the Umpqua-Cow Creek 
Band, an 1854 treaty with the Chasta, and an 1855 treaty with the 
Molalla. Vast territory of western Oregon was ceded through the treaty-
making process with our people being driven to the Coast Reservation 
and the Grand Ronde Reservation. Our reservation lands were desirable 
to settlers and, consequently, our lands were significantly diminished 
through various land acts. In 1954, the Western Oregon Termination Act 
took all of our land, without compensation, and severed our ties with 
the federal government. For almost thirty years we were landless, 
invisible Indian people in our territory, but we rejoice today because 
this great injustice was overturned through the Grand Ronde Restoration 
Act of 1983.
    The Confederated Tribes of Grand Ronde was pleased to see 
Congressional action to specifically direct money to Indian Country in 
the American Recovery and Reinvestment Act of 2009. I must, however, 
add that the recession the nation is now experiencing has long been the 
norm for Indian Country--in fact, Indian Country suffers from much 
higher rates of unemployment and poverty than the rest of the nation. 
Economic development is critical for Indian Country and tribal 
governments know this better than anyone. But economic development 
requires good roads, good schools, good phone systems, and good health 
care among other things. Termination for Grand Ronde resulted in a 
thirty-year gap in our history and suspension in community and 
infrastructure development. Starting from ground zero, the effort to 
build and sustain our community has been a monumental challenge, 
significantly more complex than one faced by a mature, established 
municipality with a continuous history of development. However, we 
continue to advance our mission to improve the quality of life for our 
Tribal members.
    Since restoration, the Tribe has worked diligently to develop the 
foundation necessary to sustain a viable community. We have invested in 
excess of one hundred million dollars to date toward this effort. 
However, to accomplish our ultimate objective requires an additional 
investment of hundreds of millions of dollars in areas such as land 
acquisition, physical infrastructure, government institutional systems, 
support services, and other resources which promote a sustainable 
community and provide a reasonable opportunity for our people to 
realize social and economic stability and progress.
    I request the Committee help Congress fulfill the treaty 
obligations of this nation by appropriating more economic development 
funds for Indian Country in the 2011 budget and any future stimulus 
package.
    With a land base today of just 12,335 acres, and without adequate 
federal funds, Grand Ronde has relied on its on-reservation gaming 
facility to support critically needed government programs and provide 
jobs for its members. We oppose efforts of some tribes to locate new 
casinos off their reservation lands and outside their traditional 
homelands. Unfortunately, the desire for off-reservation casinos has 
led some tribes to claim territorial rights outside their traditional 
homelands so they can build casinos in more marketable locations. This 
is wrong. Such moves outside ancestral lands to build casinos can 
compromise the sovereignty and culture of other tribes which have a 
genuine connection to the land in question.
    In a memo dated June 18, 2010, Secretary Salazar stated:

        ``I understand the Department currently has nine ``two-part'' 
        applications under review. For these, I recommend that you 
        undertake a thorough study of these issues and review current 
        guidance and regulatory standards to guide the Department's 
        decision-making in this important area. During this review, 
        your office should engage in government-to-government 
        consultations consistent with the policy of this administration 
        to obtain input from Indian tribes. I realize that engaging in 
        this exercise in connection with the application of the two-
        part test may cause some delay, but given the Department's 
        discretion in this area, it is appropriate that we take the 
        necessary time to identify and adopt principled and transparent 
        criteria regarding such gaming determinations. Moreover, 
        deliberate government-to-government consultations will lead us 
        to the implementation of a sound policy in this area.''

    We ask the Committee to help ensure that this ``deliberate 
government-to-government consultation'' occur before the Bureau makes 
determinations on off-reservation proposals, such as the Warm Springs' 
proposed off-reservation casino in the Columbia River Gorge.
    Finally, the IRS has taken the position with our Tribe that Tribal 
members serving on boards and advisory committees are employees for tax 
purposes. Our members are not performing services in the capacity of 
employees; instead, they are serving their Tribe on matters of 
community interest and concern. Consistent with our culture, such 
members receive reimbursement for out-of-pocket costs and a small 
stipend to compensate for their time and travel away from their homes 
and families. We request the Committee, in setting its agenda for 2011, 
hold a hearing on the IRS's relationship to Indian Country and attempts 
to impose additional taxes on Tribes and Tribal members.
    I want to thank the Committee for holding this oversight hearing 
and inviting the Confederated Tribes of Grand Ronde to testify. Senator 
Dorgan--on behalf of the Confederated Tribes of Grand Ronde and Indian 
Country, I would like to thank you for your leadership as the Chairman 
of the Committee. We appreciate your commitment and tireless attention 
to the needs of Indian Country. You will be missed.

    The Chairman. Well, thank you very much for your testimony. 
Let me just since several of you remarked that I'm not seeking 
reelection, let me just observe that I have served 30 years in 
the U.S. Congress and it has been a great gift to be able to do 
that and a remarkable privilege, and I'm not leaving for any 
other purpose other than I think there are other things I wish 
to do in life.
    But the opportunity to serve, and particularly the 
opportunity to work on these issues with my colleagues, has 
been a really great gift for me. And this work will continue, 
as you know. The work carries on. That's one of the reasons 
Senator Cantwell is here today. I mean, she's a very active 
member of this Committee and we've got a lot of people that 
will continue to make sure we address these issues.
    I'm struck by how many different issues you have raised 
today, all of them on our agenda. The Carcieri fix just as an 
example or land into trust and leasing, bonding authority, all 
of these issues are issues we talk a lot about, and I have some 
questions. Before I ask questions, let me call on my colleague, 
Senator Cantwell, for questions. And as I do that, let me thank 
all of the witnesses for your testimony.
    Senator Cantwell?
    Senator Cantwell. Thank you, Senator Dorgan. And you're 
right. There's a lot of different things that we could ask our 
panelists about, but we are in tough economic times in our 
country and in the Pacific Northwest, so I'm particularly 
interested in your thoughts on economic development.
    Chairman Finley and Chairman Allan, you both mentioned 
strategies that you are pursuing. I know, Chairman Cladoosby, 
you see probably in your leadership role this as well. But you 
both mentioned economic development besides gaming.
    Chairman Allan, you mentioned strategies affecting small 
business, so I wondered if you could elaborate more on what you 
thought the opportunities were for coordination on small 
business, and then Chairman Finley, if you could talk about 
energy policy. We have legislation before the Senate on an 
energy bill that would allow for some demonstration projects. I 
think it's your bill, Senator Dorgan.
    The Chairman. Yes.
    Senator Cantwell. And allowing for streamlined processes 
and working with Interior. So I'm interested in your thoughts 
about how that could help improve the economic conditions in 
the northeast region of our state if that legislation was 
passed or other ideas which would help Indian Country proceed 
more quickly on these ideas of renewable energy because it 
seems like you're very big players in what could happen there.
    Mr. Allan. Thank you, Senator Cantwell. Twofold for us, one 
is one of the companies that we have is an 8(a) company. We 
secured a $400 million contract with the Army to make these big 
fill bladders that we send out to Iraq. And our members are 
really, truly proud of that. They build these things right on 
the reservation. And we're being attacked on the 8(a) program, 
tribes as a whole. And that is something that we would really 
like looked at.
    Our brother tribes in Alaska seem to get a lot of the press 
and when they do have hearings, they get a lot of the slots and 
that's something we would like a fair shake at.
    The Chairman. When you say you're being attacked on the 
8(a), if I might just ask a question----
    Senator Cantwell. Yes, go ahead.
    The Chairman. What does that mean? Describe that.
    Mr. Allan. By Congress. Actually there's a move in Congress 
to do away with the 8(a) program.
    The Chairman. I understand that. I thought there was 
something else going on.
    Mr. Allan. No, no, just that.
    The Chairman. Okay.
    Mr. Allan. So that's one thing. The other thing is we have 
a couple businesses in Spokane, and just from our observations, 
I think the State of Washington loses a lot of business to 
Idaho because of the high tax rates that we have to pay in 
Washington State, and so that's something that would be helpful 
not only to us, but any small business owner in the Washington 
market.
    A lot of businesses want to move across state lines because 
they had cheaper--every tax available, so I think that might be 
something that we would like to look at.
    So like I said, we are very blessed to have a gaming 
facility, but I also know that we don't want to put our eggs in 
one basket, so we try to expand our portfolio with other things 
and sometimes we pay the tax because, you know, we want to 
expand the portfolio just like any other company would do.
    Senator Cantwell. Do you have a specific goal in mind on 
how much you would like to diversify that portfolio from a 
revenue perspective?
    Mr. Allan. For us we would like another probably 35, 40 
percent coming in from these other sources, and I think we're 
on the right track, you know. I don't want to say too much 
because then we have everybody trying to sell us snake oil, but 
you know, we want to take a look at everything that's legit and 
see if we can make it work.
    Senator Cantwell. And I'm just curious, I mean that's 
interesting that that's your thought that that would be your 
concern. I'm just asking for more of a business perspective. Do 
you look at that as a way to insulate the tribe by not having 
an overdependence on gaming, or how do you look at that from a 
business investment?
    Mr. Allan. Well, like I say, we respect everybody and every 
tribe, you know, they have their own way of dealing, but this 
is the way we look at it. We look at it as also we have to look 
where we come from. We come from the state of Idaho which is 
probably one of the most conservative states in the union. I 
mean, they are pretty conservative, so we've done a really good 
job, the leaders before me have done a really good job of 
preserving gaming in Idaho, but you just never know. You never 
know when something's going to happen and so we don't want to 
become too overdependent on gaming.
    Like I said, we are very blessed right now with that, and 
with this economy we are still very blessed that we are right 
in the middle of a big expansion of our gaming facility, that 
our numbers are slightly down. So we want to keep moving 
forward and we take that money and we invest into other 
companies, other businesses. And we have taken on other 
partners, nonnative partners with our companies too because we 
see strength in numbers, and they actually help us when we go 
to D.C. and they lobby, it's kind of nice to have a regular 
business owner, a nonnative looking at these folks across the 
aisle and say Hey, you know, this is affecting us just as much 
as it is tribal governments.
    Senator Cantwell. Well, I know that a lot of Indian Country 
is also making investments from gaming to the human 
infrastructure, basically the education level of the tribal 
community which is also an investment, because you never know 
who's going to create the next thing that comes out of your 
individual enrollment as well, so I think that's a very 
positive investment.
    Chairman Finley, could you comment about your economic 
diversification strategy and what else, if that energy bill is 
something that's of interest to you or----
    Mr. Finley. Yes, it definitely is. We've been watching it 
fairly closely. We are aware of the four pilot projects that 
are mentioned therein and we're hoping to be one of them 
because we're uniquely situated where I think we would be able 
to show that we would be a good pilot project for that purpose, 
and you know, that's one of the options we're looking at, 
specifically for our cogeneration.
    With the downturn in the market that I mentioned to you 
earlier, we realized we needed to diversify because we had 
relied so heavily for so many years on our timber as our 
revenues, and we do have casinos, but we are off the beaten 
path, everybody knows that, we're out of the way, so we haven't 
really invested in our casino properties either, but we found 
that investing more in one more recently we've seen significant 
returns and so we're going to do that, but we realize just 
gaming and timber isn't enough and that's why we've turned to 
energy, biodiesels, and this cogeneration plant.
    This pilot project that I alluded to earlier with WSU, 
there's four phases to it. They've completed one phase of it 
but they're out of money. And so we're faced with either 
funding it through the tribe, for it to continue, so we have an 
overall plan on how we're going to approach canola and 
biodiesels within the boundaries of our reservation because we 
have so much there to offer as far as agricultural land along 
the river bottoms near the Okanogan and Columbia Rivers.
    And so with that comes many jobs because there's a lot of 
labor involved in doing that work. And you know, having 
unemployment of upwards of 53 to 56 percent on the reservation 
since 2004 which certainly has escalated with the closing of 
our mills, our people are hurting right now. They need the 
work. They want to work.
    And so more recently we're able to put some of our timber 
sales out to the market, but it didn't come without a degree of 
difficulty in getting those out. But with the timber markets 
still being down, we're seeing low returns on that, but it's 
putting our people back to work which is most important to us.
    So we are looking at other areas. And I think that 
certainly the legislation that's being championed by Senator 
Dorgan, you know, we are excited about it. We are hoping to see 
that come to fruition. So I hope that answers your question.
    Senator Cantwell. Thank you. I wanted to turn it back to 
the Chairman to ask his questions, but is there anything that 
you wanted to add, Chairman Cladoosby, or anyone else, on the 
panel about economic development strategies?
    Mr. Cladoosby. Well, I think it's important to understand 
that tribes want to create economic development, especially on 
the reservations. As you heard, 50-plus percent unemployment--
it's unacceptable from a leader's standpoint. And when we have 
situations where we sometimes need to attract partners with us 
that we sometimes do not have the capital, and Chehalis I used 
as a good example where they attracted a partner, they created 
a model business, they're creating jobs, probably majority non-
Indians at this point, but we need to make sure that the rules 
are in place where we attract investment in Indian Country and 
we are not penalized for doing that. And so that is very key 
for economic development in Indian Country that a county cannot 
go to a judge and say They owe us taxes on their property from 
an investment that they've created where they're the majority 
interest owner. So we want to create economic development, but 
there's things that need to be changed to ensure that economic 
development can occur on Indian reservations when we invest 
$180 million that the Chehalis tribe has. That's just one 
example.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cantwell. Which 
of you have now felt the effects of the Carcieri decision? In 
other words, are there tribes here that have now the issue of 
land that's been taken into trust in question because of the 
Carcieri decision? Anyone?
    Mr. Harju. Don't have land in the trust.
    The Chairman. What's that?
    Mr. Harju. We don't have land in trust because of the 
Carcieri decision.
    The Chairman. All right. So it's been delayed because of 
the decision.
    We understand that we need to fix this and we're trying 
very hard. We've gotten some pushback by some who believe this 
is a decision with respect to gaming. It is not. The gaming 
issues, whether some tribe in some state can game, that's 
between the governor and the determination of a compact in the 
state with the tribe.
    We have to fix this because we're going to have a lot of 
land that is in trust that's now in question. We'll have a lot 
of other land that is supposed to be taken into trust that will 
be delayed now. So we're working very hard to try to fix this.
    Ms. Tom, you talked about the Internal Revenue Service 
issue. I'm just curious; has the IRS consulted with the Tribe 
at all on these issues? Has there been consultations or just 
the IRS says, ``Here's the way the world works'' ?
    Ms. Tom. The second part is the way it was. It's not free 
to go up against the IRS. We've had to pay special attorneys 
that are knowledgeable in IRS issues and it's cost us a 
fortune. No, there hasn't been, to answer your question, 
Senator Dorgan, there hasn't been any consultation.
    It's gotten up into the millions, and so we do need help in 
that area with the IRS, and so if there's anything that you 
guys could do, that would be great. The things that they're 
trying to tax us on is, like I said, those stipends--they are 
actually thinking that our committee members that come there 
once a month, travel maybe 50 miles, sit there for 2 hours, 
make $9 an hour, that they are employees and they have to pay 
taxes which is crazy.
    The Chairman. All right. We'll look into that. I wish these 
agencies would have consultations because I think the issue of 
sovereignty is very important. Senator Cantwell and I 
especially understand the sovereignty issues, and I think 
consultation is very important.
    Ms. Tom. Thank you.
    The Chairman. Chairman Dillon, the issue of leasing I 
expect is very important because you have port facilities here 
and so we're working very hard to try to have opportunities 
with much greater capability for the tribes to make their 
judgments and also 99-year leases. Is your tribe seeing 
restrictions in this area that have been unhelpful to your 
economic development?
    Mr. Dillon. I got a gentleman sitting right next to me that 
can answer that.
    The Chairman. All right.
    Mr. Dillon. He's our director of Marine View Ventures and 
that is part of our port development and he's the head of the--
--
    The Chairman. What's his name?
    Mr. Dillon. Chad Wright.
    The Chairman. All right. Mr. Wright?
    Mr. Wright. If I may, our leasing legislation is really a 
social and an economic issue. It's a social issue in the sense 
that we're a sovereign nation and we're not given the right to 
make our own decisions on what we want to do with our land, and 
it's hurtful to us to not be able to make decisions that we're 
prepared and qualified to make on our own. And to see my 
cousins to the north at Tulalip have that privilege and us to 
not have that privilege is hurtful. So from a social standpoint 
we're hurt by that inability to make those decisions.
    From an economic standpoint, not having the ability to make 
decisions in a timely manner do not allow us to attract 
businesses that work at the speed of business. The uncertainty 
of timing, the uncertainty of approval of leases that may have 
50-year time horizons or even longer if legislation is passed, 
really doesn't put us in position to attract outside businesses 
to come to our reservation and sign up for a deal that involves 
in some instances many hundreds of millions of dollars of 
investments on their part. They will go find another 
opportunity somewhere else that doesn't have that timing risk 
or that just uncertainty that approvals that are necessary will 
be achieved.
    The Chairman. All right. Let me ask a question somewhat 
related to that economic development issue, we have the highest 
rates of unemployment often on Indian reservations. What is the 
importance of attempting to provide additional tax exempt 
bonding authority for reservations in the context of your plans 
for economic development? Where does that rank in importance to 
you, tax exempt financing?
    Mr. Allan. For us it ranks high. I would put it in the top 
five because we're always looking at other avenues of what we 
can do, and tax exempt bonds it's cheap money that we can pay 
back and it really helps us to--you know, instead of just a 
regular loan to the bank, where they get their money, the taxes 
and bonds really do help us.
    The Chairman. Mr. Stewart, did you want to respond to that?
    Mr. Stewart. Yes, I'm going to back that up because it does 
help us in the long run to be competitive. And Senator, I hate 
to say this, but I have to catch a plane and so I'd like to 
excuse myself.
    The Chairman. All right. Thank you so much for being here, 
and thanks for your testimony, Mr. Stewart. I appreciate it.
    I didn't mean to chase you away from the table, but tax 
exempt financing, the Puyallup Tribe, does that rank near the 
top as well?
    Mr. Wright. It would be helpful. In many instances we've 
had to find creative ways to resolve that issue through 
partnerships with the Port of Tacoma or through partnerships 
with private business that has the capability of attracting 
interest rates on loans that are competitive with the tax 
exempt market. But if we were capable of making those same 
investments with tax exempt bonds it would free us up to make 
more investments in our land in a more accelerated manner, thus 
putting our lands to productive use for our membership and also 
for the community at large.
    The Chairman. Mr. Cladoosby and Mr. Finley, let me just say 
that both of you have described energy as important. And you 
know, we have a reservation in North Dakota called the Three 
Affiliated Tribes: Arikara, Hidatsa, Mandan Tribes. It's a very 
large reservation with many thousands of American Indians 
living there.
    It's right in the middle of the most active oil plate in 
the United States. It's called the Bakken Shale. It was 
assessed by the U.S. Geological Survey as the largest assessed 
reservoir of recoverable oil using today's technology in the 
history of the lower 48 states. And so I just wanted to tell 
you how big that oil play is up there.
    And yet, about a year and a half ago I put up a big map and 
I showed there's massive oil drilling north of the reservation, 
west of the reservation, and south of the reservation, and 
there was virtually no drilling on the reservation. Why? 
Because the Interior Department had a 49-step process to have a 
drilling permit, number one, and four separate agencies inside 
the Interior Department had to approve the drilling permit, 
number two.
    So you just set up a mountain of trouble trying to go do 
what is being done on all other lands--and now I fixed that 
largely, not quite done, but mostly fixed it. We have I believe 
30-some drilling rigs now drilling active wells on the 
reservation. We've got a lot of stuff going on.
    In North Dakota we've got 120 rigs drilling a new oil well 
every month and they never miss. This isn't a dry hole. They 
never miss when they drill because they know where the shale 
formation is and they go get it.
    So the point is, though, that in economic development and 
energy development it is always the case where you put up all 
these barriers. In this case the energy was oil and natural 
gas, but it might be something else. It might be wave power or 
biodiesel. We have just completed work on an energy bill, 
Indian Energy Bill in the Indian Affairs Committee, and you 
know, we delayed that to try to make sure we got done with 
Indian health care and then tribal law and order, but now we 
have the Indian Energy Bill which is very important to try to 
streamline and remove some of these burdens so the tribes can 
themselves say Here's the kind of energy future we want to 
create. Here's what we want to produce and eliminate the 
barriers to do so.
    And both of you, Mr. Cladoosby and Mr. Finley, mentioned 
this in your testimony and we'll take special note of that. I 
hope you will do special review of the bill that we've 
introduced because it's a work in progress and we certainly can 
make changes and want to improve it as well.
    Mr. Cladoosby?
    Mr. Cladoosby. Yes. Thank you for that. I think it's very 
important to understand that ATNI Tribes are very, very 
involved in energy projects. I believe Andrea Alexander is here 
with us that heads that up for us, and so, I think you have to 
tie a lot of this somehow to unemployment and underemployment 
in Indian Country.
    I mean, that's the key right there, because for example, in 
Washington, some counties get tax rebates from the state 
because they have high unemployment rates in their counties. 
And I think, you know, if you do the same thing for Indian 
Country and say that We are going to streamline this process 
because of the unemployment and underemployment, and you don't 
have to say Indian Country, you can just say, you know, in 
these areas. You know, Indian Country would qualify more highly 
because if you tie it to 20, 30, 40, 50 percent unemployment, I 
mean, that's the key right there, to make sure that we 
streamline this based on the conditions that are occurring out 
there today.
    And we can show you on the record that many of our 
communities would qualify, and streamlining these would make 
these projects a lot easier to implement.
    The Chairman. Mr. Finley? Thank you.
    Mr. Finley. I would have to agree with that. And as I said 
earlier, we are well aware of the work that's being done right 
and we're grateful. Anything we can do to help with that, just 
let us know.
    I'd like to also make a plug that we also have several met 
towers that have been up on our reservation for over a year 
now, and two of the sites have come back showing that it would 
be feasible to build wind farms, wind energy. And so we're 
looking to do that and we've actually partnered with Clipper 
Wind to do that. And they're going to take up most of the cost 
initially.
    You mentioned bonding, and getting financing is a big 
problem so, I would have to agree with my colleagues to my left 
that it would be beneficial to Indian Country to all tribes to 
have that access to it. And so with that, we would need to--
with the 40-megawatt cogeneration plant that we are looking to 
build as well as the wind farm, if both of those are up, you 
know, getting the energy generated is one thing, but getting it 
into the grid is another. And talking to BPA, they are almost 
at full capacity, so soon they are going to be cutting people 
off.
    The Chairman. There needs to be additional transmission 
capability.
    Mr. Finley. Correct.
    The Chairman. Senator Cantwell and I've worked on that as 
well. You've got the three problems of planning, pricing and 
siting, and it's very hard to site the interstate high voltage 
transmission capability.
    Just to give the audience a notion of how difficult it is, 
in the last ten years we have laid about 11,000 miles of 
natural gas pipeline across this country. During the same 
period we were only able to build 680 miles of high voltage 
interstate transmission, and that's the problem. In order to 
maximize the energy capability for renewables, we need 
transmission capabilities. So we're working on that as well.
    I want to mention to all of you I'm impressed by the 
forward-leading sound of business plans that you're involved 
with and I take great heart in that, and our job is to try to 
remove some of the burdens to the extent we can and some of the 
impediments to what you're trying to get done to build better 
economic opportunity and put people back to work. So I am 
impressed by that.
    We only have about another 20 minutes and I wanted to first 
of all thank all of you who presented formal testimony. It 
really is excellent testimony, and there are some others who 
wish to testify. I do want to recognize them and I would ask if 
they would be willing to be mercifully brief, but I do want to 
make sure that they have an opportunity to say a few words.
    David Bean is over here standing against the wall or was 
standing against the wall, and he will take a microphone around 
to where you are. David is a council member from the Puyallup 
Tribe, ``Puyallup'', I'm sorry. And you know, maybe if I could 
just move out here and live here for a while I would get all 
these names just exactly right.
    Mr. Allan. Come on out.
    The Chairman. Let me take you to North Dakota and see if 
you can get our names right, a bunch of Norwegians and Swedes 
out there. At any rate, let me call on--here's who we have so 
far: Mel Sheldon, the Chairman of the Tulalip Tribe; Greg 
Abrahamson, Chairman of the Spokane Tribe; Leonard Forseman, 
Chairman of the Suquamish Tribe; Henry Cagey, Chairman of the 
Lummi Tribe, and John McCoy, a state representative in the back 
of the room.
    So let's find Mr. Mel Sheldon. Thank you for being here.

    STATEMENT OF HON. MEL SHELDON, CHAIRMAN, TULALIP TRIBE; 
            ACCOMPANIED BY GLEN GOBIN, BOARD MEMBER

    Mr. Sheldon. Thank you, Senator. Thank you both for coming 
out today and being with us and hearing the concerns of the 
overall Pacific Northwest. I'm going to make my comment shorter 
than Chairman Dillon. So if I could defer the next 17 minutes 
of my testimony to my colleague Glen Gobin.
    The Chairman. All right. Glen, thank you for being here.
    Mr. Gobin. I also would like to welcome you here and thank 
you for being out here, thank the Puyallup Tribe for providing 
the space, Senator Cantwell, for your constant support of 
Washington state and in particular the sovereign nations within 
Washington State and all of your support, Senator Dorgan, for 
all your years of service with all the issues that our country 
is facing with the economy, the war, the health care issues, 
you have not forgotten Indian Country and in fact have pushed 
forward issues that have helped us make improvements, and I 
thank you for that and just say thank you once more.
    Much has already been said about the needs in Indian 
Country, the social issues that we all face, and as you know, 
Indian Country's not immune to the issues that all of the 
United States faces. In fact, in particular, Indian Country 
sometimes becomes a haven for sometimes some of these 
activities because of jurisdictional questions, lack of funding 
to deal with that, whether that be economic dollars or federal 
dollars. Sometimes it's hard to get access to those dollars and 
get the programs in place that need to be in place.
    But some tribes have been able to make improvements in 
those areas using their economic dollars. We seem to make a 
distinction between gaming dollars and economic development 
dollars. To us they're the same. They're economic development 
whether you call it a casino or resort or what, we're doing the 
same thing. We're providing jobs, we're buying goods and 
services, we're feeding the local economies.
    And what I just want to touch on is that and I know that 
you all work really hard on trying to help us get there, but 
there's a lot of education that needs to take place. And 
sometimes it seems like our economies are not given the same 
value as outside non-Indian economies. When we are asking for 
dollars that come into Indian Country it's looked at as a 
taking of tax dollars rather than a grant dollar coming in like 
any other municipality, and you read in the paper so-and-so 
city gets $5 million grant to do something. It's a big news 
item. When tribes get that same $5 million grant it's viewed as 
a taking: We got something for nothing it seems like. And so 
we're not given the same value.
    The same is when we're asking for changes to these programs 
that allow us or help get us access to these dollars, tax 
exempt bond financing in particular, changes to the IRS and 
some of the issues that are coming forward are across-the-board 
issues that we ask that you look at our economies and give them 
the same value--not you in particular, but our United States 
government look at that and be given the same value and the 
same weight for, after all, we're spending our dollars for the 
same thing, buying goods and services, paying for jobs, buying 
in the local economies, and those dollars have the same value 
because they're the same and they're recycled over and over 
again in our economies. And many times in our local economies 
the tribes are some of the largest employers.
    But we're not given equal credit for that, so we just ask 
that a continued--from your program, your Committee looking at 
it in that way, but the United States government give us the 
same value for our economies that we provide and we bring in 
and we are asking for these changes.
    The Chairman. We appreciate that very much and we certainly 
understand that on the Committee and we'll certainly work to 
make sure more understand it. Thank you very much for making 
the point.
    [The prepared statement of Mr. Sheldon follows:]

    Prepared Statement of Hon. Mel Sheldon, Chairman, Tulalip Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Greg Abrahamson, the Chairman of the 
Spokane Tribe.

   STATEMENT OF HON. GREG ABRAHAMSON, CHAIRMAN, SPOKANE TRIBE

    Mr. Abrahamson. Thank you, Senators. Thank you, Chairman 
Dorgan for being here, and Senator Cantwell, thank you for 
being here. I echo what the other tribal leaders said because 
we really do appreciate you guys taking the time and being here 
to listen to our needs.
    The Spokane Tribe is--we are rich with our people and our 
lands, but economically we're not doing quite as well in that 
area there. We do thank the Committee for passing our bill S. 
1388 out of Committee. We hope that with Senator Cantwell's 
help we can get it passed through this year. We got it passed 
in the previous Congress in the 108th on the Senate side and 
109th on the House side. We believe that this is the year we 
will be able to get that bill taken care of there.
    We do echo with some of our neighboring tribes here too 
with the timber industry. As the timber industry took the south 
decline there, we rose up to 52 percent unemployment. So we do 
echo what Chairman Finley of the Colville Tribe has said about 
the timber industry. It's really been a blow to us over there 
in Eastern Washington there as it went south there.
    We do--on the tax exempt bonds, some of that we--it's good, 
but then again you got to have the partner, you got to have the 
financial backing to do it. We got that first round of tax 
exempt bonds that came through. We had 22\1/2\ million, but we 
had to turn it back because we did not have the money right 
there to take care of that financially at this time.
    I also want to thank you and appreciate that you will allow 
us two weeks to put in the record for our testimony, written 
testimony. We appreciate that. And I'll keep it brief so that 
other tribal leaders can get in there.
    The Chairman. Mr. Chairman, thank you very much. And I'll 
remind everyone again that two weeks from today would be the 
deadline, and anyone is invited to submit formal testimony as 
part of the permanent hearing record that would be published.
    Leonard Forseman is the Chairman of the Suquamish Tribe.

 STATEMENT OF HON. LEONARD FORSEMAN, CHAIRMAN, SUQUAMISH TRIBE

    Mr. Forseman. Thank you, Senators and the staff for coming 
out here to the beautiful Puyallup nation for this opportunity 
to speak, and I thank you for the opportunity.
    I'm Chairman of the Suquamish Tribe here in Central Puget 
Sound and I just want to speak briefly on education. I had the 
opportunity to speak on Indian education back in a hearing a 
few months ago, and I worked really heard on this with a lot of 
the tribal leadership in this room and their policy people.
    And as you know, the Elementary and Secondary Education Act 
is being considered for reintroduction and authorization and we 
want to make sure that Indian Country is in its complex 
education issues that you're familiar with are paid close 
attention to, one of those being the fact that the Obama 
Administration which has done a lot for Indian Country which 
there has been very much appreciated.
    There appears to have an urban approach to this and there 
are some good things to look at, but we are very concerned 
about standardization of assessments and curriculum nationwide, 
although there's some savings that are taking place there, we 
are worried about the elimination or the reduction of tribal 
history and culture in our tribal curriculum. And we know this 
is very important for the success of our students as tribal 
people because we have a low achievement gap, and also we think 
it's very important for everybody, all students to learn about 
the history of our nation which is intertwined with our Indian 
people here, treaties and all these things that we're pretty 
much familiar with, but there's a lot of things in science, 
math, english that can be taught in tribal curriculum and 
tribal history can be interwoven with that. So we'll be working 
more with you on that and I would like to thank you for the 
opportunity.
    The Chairman. Mr. Chairman, thank you. And feel free to 
submit extensive comments on the education reauthorization 
provisions because we have not covered that in great specifics 
today, but that is very important to us.
    Next, Henry Cagey, Chairman of the Lummi Tribe.

      STATEMENT OF HON. HENRY CAGEY, CHAIRMAN, LUMMI TRIBE

    Mr. Cagey. I am Henry Cagey, Chairman of the Lummi Nation. 
And I do want to thank the Senate Committee for coming out and 
hosting the field hearing and also the Puyallup Tribes and all 
the other tribal leaders that showed up today.
    One of the things that, you know, I guess the hearing is 
about economic development and social issues. You know, to 
remind the Committee that most of the tribes here in the Puget 
Sound are fishing tribes, and we've had a big impact here on 
our economy with the fishing industry. And again, the Lummi 
Nation is a fishing tribe. There's over 5,000 members and 
almost over a thousand fishermen. We do shellfish, we do 
fishing, and what that ties to is natural resources.
    So again the natural resources side of funding and looking 
at natural resources has been lower on the totem pole as far as 
energy and fees to trust and Carcieri.
    Most us here in the Northwest depend on the fishing 
industry, and our nation is really taking it very hard as far 
as what's happened to our fishermen. So what we're looking at 
as far as one of the strategies is workforce development. And 
one of the things we need to look at with the Committee is 
developing our workforce for the next generation of those kids 
that can't fish, for those kids that have no ability to 
understand what it's like to grow up on the water.
    Their parents are the ones that have the fishing skills, 
but the kids behind them have no skills. Where we've seen this 
working is in the Department of Labor's Youth Build program. 
That's been one of the big things that we've seen that's 
working very good. We actually had the youth build a unit from 
the stimulus bonds through housing that actually built an 
apartment with those kids and it worked out very good.
    The other part is again the Committee I would recommend 
looking at workforce development for those generations of kids 
coming behind you. Workforce is something that we need to think 
about for the next two or three generations. Workforce and jobs 
for those kids, so they're the ones that we need to target on 
what needs to happen for their future.
    Infrastructure is another one. Infrastructure, again, is 
that I heard little discussion on infrastructure, roads, water 
and sewer as behind the fee to trust. Because once you get the 
land into trust you still need infrastructure and you need 
water and you need roads. And again without that it makes it 
very difficult to do. And one of the things that we're watching 
is the IRR program and redoing the formula, and I think there's 
a meeting coming up next month on a discussion with the 
formula. Our tribe has a big impact on that formula decision, 
and so infrastructure is a big one.
    Also within the infrastructure is broadband and broadband 
meaning that we see broadband as being one of the tools to work 
with our new generations and broadband is something that we're 
seeing that's being shared with the state. But again, we hope 
the tribes aren't going to be left out of the broadband 
initiative. There's a lot of money being put into the economy, 
but we're not sure yet if Congress is going to recognize our 
needs in broadband infrastructure which we think will cover the 
youth and their technology skills. I have a grandson that knows 
more about the computer than I do. So the broadband is 
something that's important.
    EDA's another one. And again I'm going to encourage the 
Committee to look at the EDA reauthorization. The Economic 
Development Administration has the tools andthey have tools 
that are called the Community Economic Development Strategy 
called CEDS, and that's a tool that's been working here, and 
that reauthorization is coming and we want the Senate Committee 
to encourage the tribes to be involved in that reauthorization. 
The other issue----
    The Chairman. You'll submit others as well with the rest of 
your testimony?
    Mr. Cagey. And then the Farm Bill is the other one is that 
in the Farm Bill we aquaculture included somewhere in that Farm 
Bill that recognizes the need for the fishing tribes.
    The Chairman. All right.
    Mr. Cagey. The last issue, Mr. Dorgan, is the tax policies. 
And again we feel very strongly about the tax policies that the 
IRS is imposing on the tribes which are violating the U.S. 
Constitution that Indians are not taxed.
    So again, that concludes my economic issues. The last issue 
is social issues is drugs. That has not come up, but the drug 
issue here in the Northwest is very, very hard on our economy, 
our people, and drugs are not included in the law and order 
bill. We know that.
    And again, the domestic violence and the other things we 
support, but drugs are not included, and we do need to hear 
more about what the plan is to deal with our drug problems. So 
on behalf of Lummi Nation, Hy'shqe, thank you.
    The Chairman. Thank you very much. Let me just observe, 
however, that the dealing of drugs, the consumption of drugs, 
the trafficking of drugs represents criminal acts, and that's 
part of the issue on reservations, what kind of law enforcement 
capability do we have to intercept, to prosecute and so on. So 
the intention of the Tribal Law and Order Act is to 
substantially improve the capability of tribes to address the 
drug issue. We recognize drugs, gangs and other issues are very 
important to tribes at this point.
    Finally I'm going to call on two additional folks for brief 
comments and then I'm going to call on Senator Cantwell for a 
concluding statement.
    John McCoy is a state representative here in Washington but 
is also I believe Chairman of the Native American state 
representatives across the country, and I've known John for a 
long while, it's nice to see you. You may proceed.

                 STATEMENT OF HON. JOHN McCOY, 
              U.S. REPRESENTATIVE FROM WASHINGTON

    Mr. McCoy. Thank you, Senator. Senator Dorgan, Senator 
Cantwell, thank you for allowing me to make some brief 
comments.
    I have to ditto everything that all the tribal leaders have 
said before me. Again, you asked the question about 
prioritization. You know, bonding and taxation work hand in 
hand. If you have taxation, you get bonding. So the taxation 
issue is extremely important in Indian Country so that we can 
get those better bonds and loans.
    I myself work for the State of Washington for the tribes. 
The tribes are now eligible to participate in the municipal 
investment pool which will allow some very low interest rates 
for infrastructure projects. In the State of Washington I Chair 
the Technology, Energy, and Communications Committee. I sit on 
the ag and natural resources, and I also sit on Financial 
Institutions and Insurance.
    So consequently, you know, I got a little bit that I can 
help Indian Country throughout for the State of Washington. So 
for the Washington tribes, please don't forget about the state 
because those federal dollars that come down, I'm ensuring that 
the tribes are eligible for those funds, for those various 
programs; i.e., broadband.
    I am fussing with the FCC over some of the policies they 
have in place because it actually hinders tribes from being 
able to participate. And at Tulalip it's been proven you bring 
in technology, economic development follows.
    So those are extremely important, and I am working with 
Chairman Forseman on education. And yesterday I forwarded to 
Senator Cantwell's staff a policy paper that the National 
Caucus of Native Americans legislators put together on Indian 
education. So I will make sure your office gets a copy to 
forward on.
    The Chairman. John, thank you very much for your leadership 
as well. And the last comment will come from Mikah McCarty.
    Mikah McCarty is a councilman from the Makah Tribe, and 
he's traveled from the Northwest tip of the state of Washington 
to be here this morning, and I'm going to call on him for the 
last comment.

    STATEMENT OF HON. MIKAH McCARTY, COUNCILMAN, MAKAH TRIBE

    Mr. McCarty. Thank you, Senators. Thank you, distinguished 
tribal leaders here. I just wanted to preface a comment related 
to the written testimony that we're submitting. We have some 
challenges with national marine sanctuary issues and there's a 
national ocean policy effort that the President's got underway, 
and we've been heavily engaged. But I do want to say that we do 
have good work at hand. The Makah Tribe and the other coastal 
tribes in Washington state are working on a very important 
piece of work in the national symposium for a coastal 
indigenous perspective on climate change and sustainability.
    So the energy bill and all this other good work is 
something that we really look forward to integrating into our 
agenda and we look forward to working with you in the future 
with the piece of legislation we just mentioned. Thank you.
    The Chairman. Thank you very much, and thank you for making 
a special effort to be here.
    Senator Cantwell, thanks for being here this morning. I 
know that you've got other things in other parts of the state 
of Washington today that you're doing, but I think it 
demonstrates again, as I know from your work in Washington, 
your attention to Native American issues that you're here. Do 
you have any concluding comments you wish to make?
    Senator Cantwell. Well, thank you Mr. Chairman. Again, 
thank you for holding this hearing and for the staff being 
here.
    I too am struck about the diversity of issues that were 
brought up here and I think that just shows the diversity that 
exists within Indian Country. It is a government-to-government 
relationship, and these are a vast number of issues, but no 
doubt Indian Country is playing a role in the economic 
development and growth of our state. And just so, you know, Mr. 
Berney mentioned the fact that, yes, there are many tribes that 
benefit economically and have grown, as the Tulalip, I think 
you're the second largest employer in Snohomish County behind 
Boeing, but not every tribe benefits from the ability to do 
gaming. And so the issues that have been brought up here today 
about natural resource-based economies, whether based on timber 
or fishing or just, you know, the ability to diversify the 
economic base is important.
    I know Mr. Wright left us, but one of the issues that I 
wanted to emphasize is tribes are also major cornerstones of 
economic development strategy within major urban areas like 
right here in Tacoma. The partnership that Tacoma and the 
Puyallup Tribe and Pierce County is trying to pull off as it 
relates to infrastructure development and the movement of goods 
and services because the port is such a key component to the 
livelihood of this community, so the trust issue, land into 
trust issue becomes a very important part of one partner in the 
community being able to close and solve business deals and 
business challenges.
    So if we were going to come back to ask him a question 
about that, but perhaps Mr. Wright could submit some testimony 
on that very issue. But I think we're talking here about now 
just not just a simple economic deal but things that hold up 
the entire region'sability to move forward basically because we 
don't have a framework by which the tribes can make business 
decisions, or they're very, very delayed. And I'm sure the 
testimony reflected that as well as other people get slowed 
down in how they can proceed on that economic development.
    I'm also struck, Mr. Chairman, because you and I serve on a 
couple of other committees together, how much Indian Country 
issues also spill over to those committees, whether we're 
talking about the Commerce Committee and the communication 
infrastructure issues or whether we're talking about the Energy 
Committee and Interior streamlining the process for things like 
lease resource extraction or things of that nature.
    And I think I take away from what the testimony was today, 
if nothing else, Please help us streamline the process and make 
sure that Indian Country is not only represented but 
streamlined in the ability to do the types of economic 
development you would like to do.
    So anyway, I appreciate the testimony of everybody here 
today, and you've given us a lot to take away with, if nothing 
else, looking at the bond status tax policy and working with 
the finance committee on that issue and coming up with some 
answers.
    So again, I want to thank you, Mr. Chairman, for your 
special interest in the Northwest and for your leadership. I 
know this won't be the last time, but it might be the last time 
you're here in this official capacity, and so again, the 
Northwest thanks you for your attention. I've been at other 
hearings with you here in the Northwest, so this isn't the 
first time you've done this as chairman, so we really 
appreciate the particular focus to our unique corner of the 
world.
    The Chairman. Well, thank you very much. Thank you.
    [Applause.]
    The Chairman. Let me say as we conclude here that the 
government leaders of tribal governments who have testified and 
who have come here, you all wake up in the mornings with a 
significant task and burden. You belabor in many cases and 
circumstances where there's substantial poverty and 
unemployment, and yet you have aspirations to change all that 
and you're working on a lot of different programs to try to do 
that.
    Earlier this week a teacher told me of a young Native 
American child in his school district, and he had asked this 
young third-grade child what the child--he knew it was going to 
be the kid's birthday--what this child wanted for his birthday. 
And this young third-grader said a flashlight. And he said, 
``Well, why do you want a flashlight? '' He said, ``So I can 
read at night. They turned our electricity off.''
    And I was thinking, in circumstances where you have the 
dilemma of poverty and lack of economic opportunity and fewer 
jobs than you need and so on, there is such a disadvantage, 
especially to children, and so that's why we have to focus. We 
have to focus like a laser on trying to put people to work and 
resurrect the economy so that people have a job and the money 
to pay their bills and raise their families and so on, and the 
first Americans have really been left behind.
    And I've said so often, those who were here first should 
not have second-class health care or second-class housing or 
second-class educations. It is just not acceptable. And so we 
have tried very hard to focus on that and push and prod, and 
we're going to keep doing that. And despite it all, I think 
we've made very significant progress just in the last couple of 
years, and we're going to continue to make that progress. And 
part of that is in no small part as a result of your always 
being there.
    Someone once said the world is run by those who show up. 
You always show up, and that's really important. Don't ever 
stop that. Always show up to say Here's who we are. Here's who 
we represent. Here's what we need for a better life, and that 
just makes all the difference in the world.
    Now I started by thanking Chairman Dillon and I want to end 
by calling on Chairman Dillon because my understanding is that 
he has a treat for us.
    Mr. Dillon. I would like to say yes, we do appreciate you 
being here and you, Senator Cantwell and your Committee, and we 
have the luncheon prepared. So anyone in the whole ballroom 
remain and enjoy that meal and we are looking forward to seeing 
you again whether it's in this capacity or any other one.
    The Chairman. Thank you very much. I understand it's 
probably salmon.
    Mr. Dillon. From the Puyallup River.
    The Chairman. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 12:30 p.m., the hearing adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. William Iyall, Chairman, Cowlitz Indian 
                                 Tribe
    Chairman Dorgan, Vice Chairman Barrasso, and Honorable Members of 
the Senate Committee on Indian Affairs. My name is William Iyall, and I 
am Chairman of the Cowlitz Indian Tribe of Washington State. I want to 
thank you for the opportunity to submit testimony on economic and 
social issues affecting tribes in the Northwest.
    As a landless tribe restored to federal recognition in 2002, by far 
the most important obstacle to my tribe's ability to develop a self-
sustaining economy is the fact that we have no trust lands or 
reservation on which to establish a tribal homeland and foster economic 
development for the tribe. The reason why we have no trust land is that 
the Supreme Court's decision in Carcieri v. Salazar has caused 
widespread confusion and consternation regarding which federally 
recognized tribes the Secretary does, or does not, have authority to 
take land into trust. The fact that this situation continues a year and 
a half after the decision was handed down has been absolutely 
devastating for tribes like mine.
    With this testimony I again urge Congress to pass legislation to 
address the havoc the Supreme Court has caused with its decision in 
Carcieri v. Salazar. The Cowlitz tribe is just one of many landless and 
disadvantaged tribes in the Northwest, and around the nation, that has 
been severely impact by the fee to trust delays caused by the Carcieri 
decision. These tribes desperately need congressional action to fix 
that decision and to make clear that all federally recognized tribes 
will be treated equally under the Indian Reorganization Act (IRA). In 
1994, Congress amended the IRA to explicitly instruct the federal 
agencies to treat all tribes equally under the law. In 2010, Congress 
needs to act once again to make this same principle apply to the 
federal courts.
History of the Tribe
    The Cowlitz Indian Tribe was first recognized by the United States 
in land cession treaty negotiations that took place in 1855. Because my 
ancestors refused to be removed to another tribe's reservation in a 
different part of what would become Washington State, the United States 
simply extinguished all of Cowlitz's aboriginal title by Executive 
Order without reserving any lands for our use. In the 1930s, the Bureau 
of Indian Affairs refused to let us adopt an IRA constitution because 
we had no reservation. As a result, by the 1960s, the Bureau came to 
classify the Cowlitz as an ``unrecognized'' tribe even though we had 
had a long, continuous history of interaction with the United States 
Congress and with the Department of the Interior.
    In 1977 we petitioned the Department to restore our recognition. 
After a 25-year administrative ordeal, in January 2002 the Cowlitz 
Indian Tribe was restored to federal recognition through the 
Department's Federal Acknowledgement Process. On the very same day on 
which the Tribe's recognition was restored, the Tribe petitioned the 
Secretary of the Interior to use his authority under Section 5 of the 
Indian Reorganization Act (IRA) to acquire trust title to land in Clark 
County, Washington so that the Tribe could have a reservation there. I 
should mention that in 2005, we received a legal opinion from the 
federal government that confirms that we have strong historical and 
modern ties to the area in which our Clark County land is located. 
Letter from Penny J. Coleman, NIGC Acting General Counsel, to Chairman 
Philip N. Hogen, at 11 (November 22, 2005) (``[U]nquestionable parts of 
the historical record establish that the Cowlitz Tribe, throughout its 
history, used the Lewis River Property area for hunting, fishing, 
frequent trading expeditions, occasional warfare, and if not permanent 
settlement, then at least seasonal villages and temporary camps.'').
    After having spent nearly seven years (and multiple millions of 
borrowed dollars) to navigate the fee-to-trust and reservation 
proclamation processes, in late January 2009 my Tribe's fee-to-trust 
and reservation proclamation applications, finally, were poised for 
action by the Department. A month later, the Supreme Court handed down 
the Carcieri decision. For us, the year and a half since the Carcieri 
decision has been a devastating--and surreal--experience. In June of 
2009 we submitted a lengthy legal analysis (which has been provided to 
Committee staff in its entirety) demonstrating that as a matter of law 
my Tribe was under federal jurisdiction when the Indian Reorganization 
Act was enacted in 1934. We also submitted over 260 documents from 
federal records demonstrating that not only did the federal government 
have jurisdiction as a legal matter, but also that the Department of 
the Interior was in fact exercising jurisdiction during that time 
period. Yet fourteen months after we made that submission, we have no 
decision.
The Economic Impact on My Tribe
    Interest on the money we have had to borrow to buy land and 
complete the fee-to-trust process continues to accrue at an alarming 
rate. (No federal funds have been appropriated to acquire land for 
Indians since the 1950s, so landless tribes like ours have no other 
option but to borrow.) New money to borrow is almost impossible to 
find, as banks and lenders have become wary of loaning money so-called 
``Carcieri'' tribes because of the uncertainty the Carcieri decision 
has created. And, we have entirely missed the opportunity to 
participate in any reservation-based Stimulus (The American Recovery 
and Reinvestment Act of 2009) funding. This is no small loss. Unlike 
landed tribes, we have had precious little opportunity to participate 
in the federal government's economic recovery efforts. Without a 
reservation, my tribe has no hope of ever becoming economically self-
sufficient.
    Without immediate help from Congress and from the Department of the 
Interior, our debts will continue to mount. Opportunities for economic 
development will be denied. Our inability to apply for reservation-
based funding will be unresolved. Our ability to exercise true self 
determination will continue to be compromised. Eventually, the work we 
have done in compliance with the National Environmental Policy Act will 
become outdated and require new work--and new funding. Soon another 
year will pass and we will lose more elders, who, like my predecessor, 
Chairman John Barnett, passed away without ever having set foot on a 
Cowlitz reservation. If the Legislative and Executive branches fail to 
address the very real mischief caused by the Judicial branch, the 
Cowlitz Indian Tribe may forever continue to be landless and forever be 
treated as a second-class Tribe by the very federal government that is 
supposed to act as its trustee. With genuine respect, the Cowlitz 
Indian Tribe urges the United States Congress to take decisive action 
now to ensure that no tribe will ever be treated as inferior to another 
tribe under the law.
Need for a Legislative Fix: S. 1703
    There is no doubt but that, absent action from Congress, the 
Department's exercise of its IRA authority will engender years of 
needless litigation, and tribes, the federal government, states, local 
governments and private parties will suffer the exorbitant costs 
associated therewith. Such law suits have already begun. Accordingly we 
implore this Congress to enact legislation to make crystal clear that 
the IRA is applicable to all federally recognized tribes regardless of 
the manner or date on which they received federal recognition. Congress 
must reconfirm the fundamental legal principles as well as the basic 
policies underlying passage of the IRA, and must confirm that the 
Department's implementation of the IRA (as equally available to all 
federally recognized tribes) over the past three-quarters of a century 
has been proper and entirely in keeping with those well-established 
legal principles and policies. Failure to act will result in 
unconscionable uncertainty, delay, and hardship for Indian country, and 
in particular, for landless tribes like Cowlitz.
    Finally, Congress (and the Department of the Interior) must not let 
opponents of Indian gaming hijack the Carcieri issue to further their 
own political goals. The rhetoric about ``reservation shopping'' is 
particularly offensive to a tribe like mine, which has no reservation 
at all. Concerns about Indian gaming issues are not appropriately 
addressed in the context of a Carcieri fix, and most certainly are not 
appropriately addressed by avoiding fee-to-trust decisions altogether. 
The Supreme Court's decision in Carcieri adversely affects not only 
acquisition of land in trust for tribes and individual Indians, but 
also the Secretary's authority to proclaim Indian reservations, to 
adopt tribal constitutions, and to create tribal corporations. As our 
trustee, we beg you to reject efforts to conflate Carcieri issues with 
gaming issues.
    Conclusion
    On behalf of the Cowlitz Indian Tribe I first want to thank this 
Committee for its efforts to address the Court's misguided and 
confusing decision. I also want to underscore that land is key to 
economic development and that any further delay in resolving the 
problems engendered by the Carcieri decision will have severe and 
devastating impacts on the Cowlitz Indian Tribe and others like it. 
Having played by the rules for so many years with our pending 
application, it is fundamentally unfair now to change the rules for 
tribes like ours. We respectfully, urgently, ask Congress to protect us 
(and the United States) from noxious litigation by enacting legislation 
making clear that all tribes will be treated equally under the Indian 
Reorganization Act regardless of the time and manner in which they 
achieved federal recognition.
                                 ______
                                 
   Prepared Statement of Jewell James, Master Carver, House of Tears 
                         Carvers, Lummi Nation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Hon. Edward L. Metcalf, Chairman, Coquille Indian 
                                 Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Hon. Delores Pigsley, Chairman, Confederated 
                        Tribes of Siletz Indians
    On behalf of the Confederated Tribes of Siletz Indians, I am 
pleased to submit testimony to the record of the Senate Committee on 
Indian Affairs in relation to recent field hearing on Economic and 
Social Issues Affecting Northwest Tribes. We are pleased to have this 
opportunity to present our issues and concerns.
    The Confederated Tribes of Siletz Indians is a confederation of 
many Tribes and bands whose aboriginal homelands extend from NW 
California to SW Washington, including all of Oregon west of the summit 
of the Cascades. The CTSI ceded most of its 20 million acres by 
Treaties in the 1850's and were settled on the 1.1 million acre Coast 
Reservation. Drastic reductions to the reservation in 1865, 1875, 1894 
and subsequently, left us nearly destitute of lands and resources. The 
CTSI was terminated in 1956, but is again a federally recognized Tribe 
with a 3,987 acre restored lands reservation located in Lincoln County, 
of which 250 acres were newly acquired in 1994 through legislation. In 
November 1977 the Confederated Tribes of Siletz became the second Tribe 
in the United States and the first in Oregon to be restored. The Tribe 
is proud to be one of the twenty-three Tribes in the United States to 
have become part of the Self-Governance Demonstration Project. 
Committed to the improvement of the Tribal as a whole, the nine-member 
governing Tribal Council has been innovative in exploring options to 
produce revenue and provide services.
    Expanding Self-Determination and Self-Governance opportunities. 
Self-Governance is a cornerstone of Tribal Government and our 
Administrative organization that provides key services to Tribal 
members and the communities in which we serve. We ask that the federal 
government actively pursue with us our lead role under the directives 
of the Indian Self Determination Act (PL 93-638). This would include 
making the policy of self-determination a proactive element of the 
Congress and the Federal Government, not just a consequence of the 
Tribes' insistence.
    Energy development and climate change. The Siletz Tribe has been 
exploring methods to develop projects that will leverage Tribal 
resources and expertise for energy efficiency and generation. The Tribe 
has considered wind, biomass, solar, wave, natural gas turbine, and 
hydroelectric energy opportunities, among others. We feel that the 
Departments of Energy and Interior could enhance Tribal project 
evaluation and project funding with government sponsored or backed 
bonds.
    Streamlining the fee-to-trust process. As a restored Tribe, it is 
absolutely crucial that the lands reacquired by our Tribe can become 
productive for us more quickly. This includes breaking down unnecessary 
barriers and expenses that the Bureau of Indian Affairs requires of 
Tribes to put even on-reservation land into trust status.
    The enactment of a Carcieri ``fix''. In order to ensure that all 
federally recognized Tribes can avail them of the opportunity to have 
land taken into trust for economic development or other purposes; this 
clarification is a critical issue.
    Federal and state taxation. The taxation of Indian lands, property, 
and enterprises is another area of concern and interest to the Siletz 
Tribes. Tribal governments should receive the same benefits with 
respect to taxation that all other units of Federal, state, and local 
governments enjoy. For example, we should be allowed to issue municipal 
bonds without the additional barrier and cost of SEC filings that no 
other local unit of government is required to do, utilize tax credits 
available to other public bodies for certain types of economic 
development (such as energy projects), and rely on the same types of 
``governmental'' activities used by other municipal entities to receive 
favorable tax treatment.
    Housing. Safe, healthy and affordable housing is crucial for family 
stability. The Siletz Tribe provides housing services to tribal 
families through an Indian Housing Block Grant (IHBG) authorized under 
the Native American Housing and Self-Determination Act. Since 1989 the 
Tribe has constructed and now manages 80 low rent apartment and 83 
homeownership units. At present another 27 low rent apartment units are 
under construction. In addition, the Tribe provides rent subsidies for 
78 low income tribal families. Despite providing these services there 
remains 123 low income families on our housing waiting lists. The IHBG 
funding level supports existing unit management and rental subsidies, 
but it does not allow developing additional housing to meet the needs 
of tribal families beyond providing one home for a tribal elder 
household. The Tribe urges fully funding the IHBG at $875 million ($700 
enacted for 2010) and the Indian Community Development Block Grant at 
$100 million ($65 million enacted for 2010). Since the IHBG supports 
little development, Tribes must access other housing resources such as 
the Low Income Housing Tax Credit (LIHTC) program. However, these 
credits go to the states to distribute and tribes have had a difficult 
time accessing this resource. In Oregon, we are aware of only one tribe 
being awarded tax credits and that was several years ago. A Tribal set-
aside for the LIHTC program is needed to ensure tribal access to this 
program. The Tribe also wants to see the Senate act on SCIA's 
recommendation for passage of H.R. 3553, the Indian Veteran's Housing 
Opportunity Act which would exclude income that is service-related 
disability received by a veteran or his family from the definition of 
``income'' under NAHASDA.
    Natural Resources. The restoration of the Siletz Tribe, as with 
many Oregon restored Tribes, had a component of scattered timber tracts 
forming the initial land base for us. We have developed sustained yield 
harvest management on these and other more recently acquired tracts. 
These resources are essential for our spiritual, economic and cultural 
survival as Indian people. Habitat destruction, pollution, unregulated 
water withdrawals, poor land-use planning, and many other environmental 
issues today threaten to make meaningless our reserved rights. The 
Siletz Tribe asks for adequate and efficient funding of federal 
reserved obligations through Tribal natural resources management 
programs, projects, and agreements. Areas in critical need of funds are 
water resources management, hatcheries, habitat restoration, timber and 
wildlife management. Healthy environments lead to healthy communities 
and healthy economies.
    Small Business. The Siletz Tribe provides technical assistance and 
limited funding to Tribal member-owned businesses. Through our 
experience, we are seeing excessive barriers to minority certifications 
for individuals and Tribal enterprises, as well as limited, enforceable 
requirements to ensure we have opportunity to provide services or 
products to Federal agencies. The Small Business Administration could 
also expand its resources--financing and technical assistance--to 
support these ends.
    Specific Agency Support. The Siletz Tribe has received very 
valuable support and resources from the Department of Commerce's 
Economic Development Administration, the USDA Rural Development, and 
the HHS Administration for Native Americans. We would urge that 
Congress continues these vital programs that build our capacity and 
important projects. We would likewise encourage the expansion of the 
Bureau of Indian Affairs programs at least back to the funding levels 
established in the 1974 Indian Financing Act.
    I appreciate the opportunity to provide this testimony before the 
Committee. Please let me know if we can provide further background or 
detail on these issues or other questions that the Committee may have.
                                 ______
                                 
   Prepared Statement of The Confederated Tribes of the Warm Springs 
                         Reservation of Oregon
    The Confederated Tribes of the Warm Springs Reservation of Oregon 
respectfully submit this statement for inclusion in the record of the 
U.S. Senate Indian Affairs Committee field hearing held on August 12, 
2010 at Chief Leschi School on the Puyallup Indian Reservation, Tacoma, 
Washington regarding ``Economic and Social Issues Affecting Northwest 
Tribes.''
Warm Springs Background
    The Warm Springs Indian Reservation was established by the Treaty 
with the Tribes of Middle Oregon of June 25, 1855. Our Treaty-signing 
ancestors lived along with Columbia River and its major Oregon 
tributaries, the Hood, Deschutes and John Day rivers. Our political 
domain at Treaty time included 10 million acres of north central Oregon 
from the Cascade Falls on the Columbia River east to the Blue Mountains 
and south from the Falls along the crest of the Cascade Range to the 
44th parallel south of Bend, Oregon. We ceded our title to most of this 
land in the 1855 Treaty in exchange for exclusive use of the 640,000 
acre Warm Springs Reservation and for an express reservation of off-
reservation rights to fish at all of our usual and accustomed fishing 
stations on the Columbia and elsewhere and the rights to hunt, gather 
roots and berries and graze cattle on unclaimed lands.
Warm Springs Today
    Today, the Warm Springs Reservation is home to 80 percent of the 
nearly 5,000 Warm Springs tribal members who live on land that is over 
98 percent owned by the Tribe. It is a very beautiful but remote 
reservation that includes 300,000 acres of forested lands, as well as 
open grazing land, small farms, rural residences and several small 
communities. There are no non-Indians living on non-Indian owned fee 
land on our reservation, which means that our Tribal government has 
full regulatory jurisdiction over the lands and inhabitants of our 
reservation. Our government's power and authority--and our 
responsibilities--have also grown as a result of our exemption from 
Public Law 280's grant to the State of Oregon of jurisdiction over 
Indian Country in Oregon, except for the Warm Springs Reservation. The 
result is that Warm Springs is the only government providing all 
essential governmental services for the 5,000 residents and 1,000 
square miles of the Warm Springs Reservation.
Our Dire Economic Situation
    Despite the fact that Warm Springs is a large land based tribe with 
a significant timber resource base, our economic situation has become 
increasingly dire in recent years. Like many communities in the 
Northwest, Warm Springs traditionally has relied on its timber resource 
to generate revenues to fund government services and provide jobs for 
local residents. And, like almost all Northwest timber communities, we 
have experienced the extreme economic pain of the collapse of the 
Northwest timber industry. To illustrate that point, in 1994 the Tribe 
took in over $24 million in timber revenues to fund our growing tribal 
government. Our police department, courts, jail, fire department and 
ambulance crews, just to name a few of our many governmental services, 
were all funded with this Tribal timber money. By contrast, last year, 
tribal timber revenues to fund tribal government were less than $2 
million. This is a $22 million shortfall in just over a decade and a 
half, at a time when the tribal membership grew rapidly due to a high 
birthrate and the demand for tribal governmental services expanded 
greatly.
    We have searched diligently for alternative revenue sources to fill 
the gap caused by the collapse of the timber industry. We have had some 
success with hydropower by acquiring a stake in a private utility 
hydroproject that is partly located on the Reservation. We are also 
looking at expanding from hydro to other renewable energy 
opportunities, such as solar and wind power. While promising, none of 
these potential economic development projects offer the promise to 
fully make up for the dramatic and rapid decline in timber revenues. In 
addition, unlike the timber industry, which used to provide hundreds of 
jobs for our tribal members working in the woods and at our tribal 
sawmill, the energy projects are not labor intensive. In other words, 
they offer the promise of new revenue streams but without the job 
creation impact we are looking for.
Gaming
    The one real opportunity we see for restoring our financial and 
economic base and heading off the looming fiscal crisis for our Tribal 
government is a proposed gaming project to be located 37 miles north of 
the Reservation on our ancestral lands at Cascade Locks, Oregon. The 
area in and around what is today Cascade Locks has been the homeland of 
our people since time immemorial. It is clearly within our 1855 Treaty 
description of our ceded territory, a fact confirmed by the U.S. Indian 
Claims Commission in its rigorous judicial examination and ``aboriginal 
title'' judgement (ICC Docket 198) regarding our territory, which holds 
the area was ours exclusively. This fact is further confirmed by the 
many Warm Springs tribal members who continue to live and exercise our 
1855 Treaty fishing rights in Cascade Locks today.
    We have been pursuing this project for nearly a decade, since the 
tribal membership voted overwhelmingly in a 2001 tribal referendum to 
direct Tribal leadership to pursue a gaming project in the Columbia 
Gorge. While we believe this project is close to final approval, it has 
faced numerous bureaucratic hurdles and delays imposed by the last 
Administration at Interior, and also by the current Administration. So 
far, it has taken twice as long and cost two to three times more than 
we projected when we started. Nonetheless, since we just had the Final 
Environmental Impact Statement for the project published in the Federal 
Register on Friday, August 6th, our membership and our leadership are 
united in believing that we are in the final steps of having this 
project approved by the Secretary of Interior. If final approval is 
obtained, we believe that our long term economic outlook is much 
brighter, although it will take many months and even years to clear any 
possible legal challenges, finalize financing, and build the project 
before we can begin to see the financial rewards of this project flow 
to the Tribal government.
    The Committee should disregard the Grand Ronde Tribe's request in 
their August 12 testimony before the Committee to advocate for some 
protracted re-review of Interior gaming policy. The Grand Ronde's 
single purpose with that request is to try to delay and defeat 
potential gaming competitors such as Warm Springs. Indeed, any 
Committee communication with the Department of Interior on this issue 
should be to urge prompt and fair processing of the Warm Springs 
application, which has been subject to numerous unjustified delays, 
rather than supporting Grand Ronde's efforts to postpone once again 
final action on our project.
Education
    Regarding social issues, many of our issues involve the youth of 
our Tribe, especially in the area of education. The Warm Springs 
Reservation, with its 1,000 square mile expanse and 5,000 residents, 
may be the largest geo-political area in the Northwest without a high 
school and middle school serving its school age population. Our young 
people, after finishing the 5th grade at an outmoded former BIA 
boarding school that now attempts to function as a public elementary 
school, are bussed off reservation to public middle school and high 
school at the border town of Madras, Oregon. For some students who live 
at the north, or opposite, end of the Reservation from Madras, the 
school bus ride is three hours round trip each day. Obviously, there is 
a critical need for not only a new public elementary school at Warm 
Springs but also a middle and high school located on our reservation to 
serve our young and fast growing population. It is no wonder that 
dozens and dozens of Warm Springs high school age students choose to 
attend BIA boarding schools in California, Oklahoma, South Dakota and 
Salem, Oregon rather than stay home and make the long daily bus ride to 
public school in Madras.
    Unfortunately, Indian students in Oregon are served by local public 
schools, and at least in our vicinity, the local public school district 
is unable to pass a bond measure to build the elementary, middle, or 
high school needed to serve our children. Despite our efforts to bring 
what we can to potential joint efforts with the school district, and to 
scour the slim prospects at the B.I.A. and the U.S. Department of 
Education, including the American Recovery and Reinvestment Act, the 
means by which any of these new facilities might be built on our 
reservation remain elusive. This is both frustrating and heartbreaking 
for us, and for our children, because on our reservation, with 
unemployment at nearly 60 percent and scarce job opportunities, 
education is just about the only path toward improved circumstances.
    Mr. Chairman, that concludes the Warm Springs testimony. We 
appreciate the opportunity provided by this Committee to express our 
views on the economic and social issues that confront Northwest Tribes.

                                  <all>

</pre></body></html>
